<html>
<title> - THE CENTRAL AFRICAN REPUBLIC: FROM ``PRE-GENOCIDE'' TO GENOCIDE?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





                  THE CENTRAL AFRICAN REPUBLIC: FROM 
                     ``PRE-GENOCIDE'' TO GENOCIDE?

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 1, 2014

                               __________

                           Serial No. 113-180

                               __________

        Printed for the use of the Committee on Foreign Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______

                         U.S. GOVERNMENT PRINTING OFFICE 

87-715PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001











                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
DOUG COLLINS, Georgia                GRACE MENG, New York
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
TED S. YOHO, Florida                 TULSI GABBARD, Hawaii
LUKE MESSER, Indiana                 JOAQUIN CASTRO, Texas

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
TOM MARINO, Pennsylvania             KAREN BASS, California
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
STEVE STOCKMAN, Texas                AMI BERA, California
MARK MEADOWS, North Carolina



















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Robert P. Jackson, Principal Deputy Assistant 
  Secretary, Bureau of African Affairs, U.S. Department of State.     7
The Honorable Anne Richard, Assistant Secretary, Bureau of 
  Population, Refugees and Migration, U.S. Department of State...    17
Mr. Scott Campbell, regional director for Central Africa, 
  Catholic Relief Services.......................................    33
Ms. Madeline Rose, policy & advocacy advisor, Mercy Corps........    42
Mr. Kasper Agger, field researcher, Enough Project...............    52
The Honorable Robin Renee Sanders, chief executive officer, 
  FEEEDS Advocacy Initiative.....................................    59

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Robert P. Jackson: Prepared statement..............    11
The Honorable Anne Richard: Prepared statement...................    20
Mr. Scott Campbell: Prepared statement...........................    37
Ms. Madeline Rose: Prepared statement............................    45
Mr. Kasper Agger: Prepared statement.............................    54
The Honorable Robin Renee Sanders: Prepared statement............    62

                                APPENDIX

Hearing notice...................................................    82
Hearing minutes..................................................    83
The Honorable Robin Renee Sanders: Revised and extended statement    84
Written responses from the the Honorable Anne Richard to 
  questions submitted for the record by the Honorable Christopher 
  H. Smith, a Representative in Congress from the State of New 
  Jersey, and chairman, Subcommittee on Africa, Global Health, 
  Global Human Rights, and International Organizations...........    87

 
    THE CENTRAL AFRICAN REPUBLIC: FROM ``PRE-GENOCIDE'' TO GENOCIDE?

                              ----------                              


                         THURSDAY, MAY 1, 2014

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 10 o'clock 
a.m., in room 2172 Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order and thank 
you for being here and good morning to everyone. Our hearing 
addresses an extremely critical topic this morning, the 
worsening crisis in the Central African Republic where untold 
lives hang in the balance and the window for action is 
narrowing each and every day.
    This is not the first hearing that we have had on the 
Central African Republic. It follows up on a hearing that we 
held last November, and of course many of us, like our 
distinguished witnesses, have been in ongoing and numerous 
meetings with bishops, imams, humanitarian NGOs, diplomats, and 
interested parties.
    I would note that at our November hearing, Acting Assistant 
Secretary Robert Jackson who will again testify today said that 
the CAR was in a pre-genocide stage. Since that time that Mr. 
Jackson spoke to us, the situation appears to have gotten 
demonstratively worse.
    We will hear again today from Acting Assistant Secretary 
Jackson who will update us not only on the situation on the 
ground, but also on a changing policy that I believe reflects a 
course of action that we had recommended that the 
administration undertake last November--namely, that the United 
Nations peacekeepers be introduced into the country, as the 
existing African force has been serving far too many vested 
interests.
    Hopefully such an intervention will not come too late, 
because we are witnessing a country that is in rapid 
disintegration, apparently descending again from a pre-genocide 
stage to one characterized by a word almost too painful to 
articulate, genocide.
    For in a country that for decades has been characterized by 
brutal misrule and brazen corruption, we are seeing for the 
first time sectarian divisions that never existed before. 
Economic tensions and rivalry over land use for grazing versus 
planting have always existed, but they have given way to a 
butchery based on religious and ethnic affiliation.
    This is happening at a time when we mark the 20th 
anniversary of the genocide in Rwanda. When that country was 
being turned into a massive killing field the world stood idly 
by. Both President Clinton and the U.N. peacekeeping chief at 
the time, Kofi Annan, had actionable intelligence information 
that could have prevented, or at least mitigated, the Rwandan 
genocide, but chose callous indifference that enabled slaughter 
of unprecedented proportions.
    I would note parenthetically that I held a series of 
meetings--hearings, three of them--on Rwanda, and we heard from 
people who said we had the information in hand. General 
Dallaire was there on the ground willing to take effective 
action to curtail what turned out to be upwards of 1 million 
people who were slaughtered, and with that information again 
that could have been prevented or at least largely mitigated.
    When the blood stopped flowing, the world looked at the 
corpses piled high and was shocked. ``Never again'' was the 
phrase that was on everyone's lips. Well, ladies and gentlemen, 
it is happening again as we know, as our distinguished 
witnesses know and will bear witness to today. The question 
before us today is whether the phrase ``never again'' is one 
that we simply use to pay lip service while nothing is being 
done or not enough, and whether or not we are going to act 
decisively.
    We do have two distinguished witnesses from the State 
Department here today, and as I mentioned Acting Assistant 
Secretary Jackson and also Anne Richard, Assistant Secretary 
for Population, Refugees, and Migration.
    While the State Department sending two people to testify is 
very encouraging, as it shows a heightened commitment to the 
issue, the question I will be asking them to answer is not what 
are we doing, but are we doing enough?
    In 2012, the administration, to much fanfare, created an 
Atrocities Prevention Board following a Presidential Study 
Directive which stated that ``Preventing mass atrocities and 
genocide is a core national security interest and a core moral 
responsibility of the United States.''
    The APB is supposed to provide early warning of mass 
atrocities and mobilized interagency resources to stop such 
atrocities. But where has the Board been? Did we take our eyes 
off the ball in the CAR, perhaps because we are confronted by 
so many other crises? While we have taken some steps including 
authorizing $170 million in humanitarian and peacekeeping aid, 
something we hope to hear more about from our Government 
witnesses, are such resources adequate given the magnitude of 
the problem?
    We have a situation in a country where of the population of 
roughly 5.2 million people, 1.3 million are at risk of 
starvation while 2.5 million are estimated to be in need of 
other forms of humanitarian assistance--that is nearly half the 
country. We are seeing ethnic cleansing whereby whole villages 
are being emptied and a countryside laid waste.
    There are more than 600,000 internally displaced persons in 
the CAR, plus more than 320,000 others who are refugees in 
neighboring countries. Illustrative of how the situation has 
worsened, the total number of those displaced has doubled since 
the time we held our hearing last November when it was 
estimated at 460,000 CAR nationals displaced.
    Accurate figures for the numbers killed are hard to come by 
and we hope our witnesses will be able to shed some light on 
that. We are told that an estimated 2,000 people have been 
killed since December alone, but I believe that number is 
probably a conservative estimate.
    What reports we do receive, however, are blood-curdling. 
Human Rights Watch reported on an attack of a Muslim 
neighborhood in the town of Guen in the early morning hours of 
February 1, by so-called anti-balaka forces. A father recounted 
how as the family was fleeing he saw his 10-year-old boy shot 
in the leg and fall down. The child was then set upon by men 
with machetes who hacked at him until he was dead.
    Four days later, in what was reminiscent of the massacre in 
Srebrenica in former Yugoslavia, anti-Balaka forces came upon a 
group of Muslims who were in hiding. They separated the men 
from the women and small children and executed the men, 45 of 
them, using machetes and then shooting those who lay wounded.
    Through the decades, the CAR has been beset by violence and 
misrule. Such religious-based violence though is something that 
is a new phenomenon. How did the country get to this point? 
What began as a political coup d'etat in March 2013 against 
former President Francois Bozize by Michel Djotodia quickly 
took on religious and ethnic overtones.
    As we detailed in our November hearing, Djotodia came to 
power with the military backing of Seleka, a militia of some 
25,000 men, up to 90 percent of whom came from Chad and Sudan 
and therefore constituted a foreign invasion force in the eyes 
of many. They did not speak the local language and are Muslim 
in a nation that is over 80 percent Christian or otherwise non-
Muslim. They destroyed churches, executed priests, stirred up 
sectarian hatreds where little to none had previously existed.
    What we began to see happening last November in response to 
Seleka was a reactionary backlash by anti-balaka or anti-
machete self-defense gangs. Since then, retaliatory outrages 
committed by anti-balaka forces have escalated, and Muslim 
civilians who had nothing to do with Seleka became targets.
    As in the case of Guen, whole neighborhoods in the capital 
city of Bangui and whole villages have been cleansed of their 
Muslim populations. As we will hear from our witnesses, there 
are numerous causes contributing to grievances including a 
fight to control conflict minerals. Guen, for example, is a 
mining area and thus there are economic motives that work there 
as well.
    Insofar as conflict can be described as religious on one 
level, it is also true that religious fervor and dedication 
provides the greatest hope for peace and reconciliation in the 
Central African Republic.
    Some of you will recall how a few months ago, three great 
religious leaders came to Washington as well as to New York, 
the United Nations, especially meeting with people on both 
sides of the aisle, both chambers, the White House, and U.N. 
officials. One was a Muslim imam; another, evangelical 
Christian leader; and a third, a Catholic bishop from Bangui.
    Imam Layama, Archbishop Nzapalainga, and Reverand Nicholas 
Guerekoyame-Gbangou, the three spoke, and I met with them as 
did so many others and was absolutely impressed, in awe of 
their fervor to bring peace and reconciliation to their country 
and to do just like the Christians or Muslims are trying to do 
against the Boko Haram where we saw recent outrages.
    Greg Simpkins and I were in Jos recently, last September, 
and we met with the imam there as well as the Catholic 
archbishop who have joined arms and linked hand to hand their 
communities to say no to the extremism on either side, in that 
case is Boko Haram. We are seeing the same positive, 
interreligious dialogue and cooperation occurring again here in 
CAR.
    Finally, I want to relate to you a story about another man 
of God, someone whom those of you who attended our November 
hearing will remember and remember well. Two weeks ago was Holy 
Week, and on Holy Thursday, Bishop Nongo, who testified at our 
hearing, was visiting an outlying parish along with three of 
his priests.
    The car he was traveling in was stopped on the road by 
Seleka gunmen whose leader had for a period occupied his city, 
his parish. He accused Bishop Nongo of having thwarted his 
plans in working with international peacekeepers. He then 
sentenced him and the other three priests to execution and 
death. The gunmen removed his episocopal ring and a large cross 
he had around his neck, and you might remember when he sat 
where you sat, Secretary Jackson, he wore that cross around his 
neck.
    The four men were placed in a truck and were then driven 
north to the border with Chad for the order to be carried out. 
On the way to the gallows their truck was stopped, again by 
Seleka gunmen, this time commanded by another warlord who 
actually knew Bishop Nongo and knew that he was a true 
humanitarian and a man of peace and knew that the bishop 
provided for over 35,000 displaced people in his parish. 
Whether they were parishioners or not, he just cared for them.
    He ordered the bishop and the priests freed, and through 
efforts of international aid organizations and the 
peacekeepers, they were helicoptered back to his home parish in 
time for Good Friday. The story really hit home with me and I 
am sure it will with others who know him.
    Here is someone who I and others shared coffee with, we 
prayed with him, and then we heard him give powerful testimony. 
And his clarion call to the international community was to get 
those peacekeepers, besides all of the humanitarian aid and the 
other things that he said were so desperately needed. He said 
we need peacekeepers who will stop the carnage and will do it 
immediately.
    So I am grateful that he survived to continue doing his 
great lifesaving and life-enhancing work, but it just 
underscores the precarious nature of how everyone, Muslims, 
Christians, are at risk. Clergy, imam, bishop, they are all at 
risk in the CAR and we need to redouble our efforts.
    And again I thank our witnesses for being here. I yield to 
my friend and colleague Karen Bass for any opening comments she 
might have.
    Ms. Bass. Thank you, Chairman Smith. As always, thank you 
for your leadership of this subcommittee and also convening 
this hearing on the Central African Republic and the prospects 
that the ongoing conflicts there might intensify into genocide.
    I would also like to thank our distinguished witnesses 
including Ambassador Jackson and Anne Richards from the U.S. 
Department of State as well as a range of experts from 
prominent nongovernmental development and advocacy 
organizations.
    I look forward to hearing your perspectives on the ongoing 
crisis in the Central African Republic including getting an 
update on the humanitarian situation and the U.S. and 
international efforts to address the challenges, including the 
collaboration with the African Union and what is ultimately at 
stake if efforts to quell the conflict are not implemented with 
sufficient resources and all deliberate speed.
    In April I had the honor of traveling to Rwanda, Burundi, 
and the Central African Republic as part of the presidential 
delegation to the region to attend the 20th anniversary of the 
Rwandan genocide. And while on the Central African Republic leg 
of the journey, I witnessed firsthand much of the poverty, the 
chaos, and the lack of economic opportunities which in many 
ways we know gave rise to much of the current conflict.
    In addition to attending the Rwandan genocide memorial, 
when we went to the CAR it is my understanding in traveling 
with Ambassador Power that it was the first time a Cabinet-
level official had ever traveled to the nation. We met with a 
group of Muslims and Christians and it was really just tragic 
to hear their testimonies and their stories.
    There was one woman who spoke with us and talked about how 
she lost both of her children. Her son left that afternoon to 
go to the market and never came home, and her daughter was 
later found murdered. And she was a Muslim woman who was now 
afraid to leave her house.
    And Mr. Chairman, you have on many occasions on the human 
rights portfolio part of the subcommittee talked about the 
persecution of Christians, and here we have a situation where 
there is Christian-led militia that are attacking the Muslim 
population, and in fact it is reported that over 90 percent of 
the population has been driven out of the country which is a 
situation that we are certainly going to have to be looking at, 
how we bring them back in.
    When we met with the President of the CAR, even she talked 
about even how her own security was not stable. I mean, she was 
frightened. You remember that because there are many of you 
here who are going to give testimony today were a part of that 
delegation, and listening to her talk about her own situation 
was quite frightening.
    But we do know that while much as been made of the 
religious layers of the conflict, the differences in religious 
ideology were not the origin of the crisis which actually 
reflects complex tensions over access to resources, control 
over trade and land, and issues of national identity.
    And you certainly when you had the hearing and talked about 
the religious leaders that were here is an example of how we 
know that people there and leadership there really do want to 
resolve this situation in a peaceful way.
    So as we prepare to hear from today's witnesses, I hope we 
can learn critical lessons from the vast experience and use 
them to increase support by the most effective measures to 
bring an end to the conflicts in the Central African Republic.
    And when we do listen to the witnesses, I am hoping that 
you will provide guidance for us in terms of if there is 
anything else that we can do in Congress. So as always I am 
committed to working toward this end and look forward to 
working with my colleagues in Washington and on the continent 
to find a peaceful resolution.
    Mr. Smith. I thank my good friend for her very eloquent 
statement. And to underscore, as I tried to do in my opening 
statement, what we have tried to do in this human rights 
subcommittee, and I have chaired it beginning in 1995--was out 
of it for a little while, when I did another chairmanship--but 
let me just say clear and unambiguously, any sectarian violence 
is to be abhorred, condemned, fought against, struggled 
against, and what I have tried to do is to emphasize--and I 
held all the hearings on Srebrenica as that was happening and 
immediately thereafter when Muslims were targeted simply 
because they were Muslims--and try to make very clear today 
that both sides of extremism that are slaughtering people 
because of their religious faith or ethnicity are to be 
condemned and held to account.
    And just parenthetically I would say to my colleagues, 
yesterday this committee approved a resolution I have been 
pushing since September to create a war crimes tribunal that 
would mirror the great work that was done by David Crane in the 
Sierra Leone War Crimes Tribunal, Rwanda, and Yugoslavia, an ad 
hoc tribunal that would go after both sides, those that are 
killing Christians and those that are killing Muslims and 
everyone else who is doing the slaughtering in Syria.
    I would like to yield to my friend and colleague, Mr. 
Weber, the vice chairman of the subcommittee.
    Mr. Weber. Thank you, Mr. Chairman. I appreciate you 
holding this hearing. I am ready to get going and anxious to 
hear witnesses.
    Mr. Smith. Okay. Mr. Marino?
    Okay, I would like to introduce our distinguished 
witnesses, again thank them for being here, beginning first 
with Ambassador Robert Jackson, currently the Principal Deputy 
Assistant Secretary in the Bureau of African Affairs, 
previously served as the Ambassador to the Cameroon, the deputy 
chief of mission and Charge d'Affaires at the U.S. Embassies in 
Morocco and Senegal.
    He has also worked in Burundi, Zimbabwe, Portugal, and 
Canada. At the State Department he has worked in commercial and 
consular sections and has done officer training. He performed 
oversight in the Office of the Promotion of Democracy and Human 
Rights after 9/11, and without objection his full testimony 
will be made a part of the record.
    Ms. Anne Richard who is the Assistant Secretary in the 
State Department's Population, Refugees, and Migration Bureau, 
a position she has held since 2012, Ms. Richard's previous 
government service includes time in the State Department, the 
Peace Corps, and the Office of Management and Budget. She has 
also worked at the Council on Foreign Relations, the 
International Rescue Committee, and was part of the team that 
founded the International Crisis Group, a group that we hear 
from often on this committee as well.
    So Mr. Ambassador, if you could begin.

STATEMENT OF THE HONORABLE ROBERT P. JACKSON, PRINCIPAL DEPUTY 
ASSISTANT SECRETARY, BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT 
                            OF STATE

    Ambassador Jackson. Thank you very much Chairman Smith, 
Ranking Member Bass, other members of the subcommittee, for 
this opportunity to testify again about the Central African 
Republic (CAR). Since I last appeared before you we have grown 
more concerned with the interreligious violence that continues 
between anti-balaka and ex-Seleka militia throughout the 
Central African Republic.
    The United States remains committed to working with the 
CAR's transitional authorities and the international community 
to end the violence and build a transitional process leading to 
the establishment of a legitimate elected government in CAR.
    In the process of forcibly taking political power from 
former CAR President Francois Bozize, Seleka destroyed the 
traditionally amicable relationship between CAR's Christians 
and Muslims. Seleka fighters were little more than mercenaries, 
bandits, and criminals who sustained themselves by looting, 
killing, kidnapping, and pillaging the country which is 85 to 
90 percent Christian and animist.
    While the Seleka rebellion did not begin as a religiously-
based movement intent on targeting Christians, the 
disproportionate impact of its extreme violence on the 
population led to the establishment of Christian self-defense 
militias, the anti-balaka. These militias then began to engage 
in revenge killings, first against Seleka rebels then against 
presumed Seleka supporters, and then indiscriminately against 
Muslims and their religious sites.
    Interim President Djotodia's January 10 resignation 
occurred only after his rule had bankrupted the government and 
left a path of destruction and lawlessness that pervades the 
entire country today. U.N. agencies and human rights 
organizations have estimated that over 600,000 persons have 
been displaced since the beginning of the Seleka rebellion in 
late 2012.
    Just since December 2013, at least 2,000 people have been 
killed, and another 100,000 have fled the country. We are 
particularly concerned that the imminent threat against Muslim 
civilians has forced many to abandon their homes and 
communities and to seek help from U.N. humanitarian agencies, 
the African Union, and the French peacekeeping forces to 
relocate within the Central African Republic or to neighboring 
countries.
    Just last weekend, at the urgent request of Muslim 
civilians in the PK12 neighborhood of Bangui, peacekeeping 
forces transported over 1,200 people to towns in the northern 
part of the country. As soon as those folks departed, the 
remaining local population attacked and destroyed the mosque 
and looted the homes of those who had left.
    This forced relocation of Muslims from their homes and 
communities is deeply disturbing and fundamentally alters the 
religious composition and character of CAR's towns and regions. 
The violence unleashed by Seleka and then compounded by the 
anti-balaka militias may have permanently changed CAR's 
historic tradition of religious tolerance and coexistence.
    In Bangui alone, an estimated 5,000 to 7,000 Muslims remain 
out of an estimated previous population of approximately 
100,000, and only five of the 37 mosques are still standing. My 
colleague Anne Richard, Assistant Secretary of State for 
Population, Refugees, and Migration, traveled to Bangui on 
April 7. I will defer to her for additional comments about the 
humanitarian conditions she witnessed and our humanitarian 
response.
    If you will allow me, I would like to explain just what the 
U.S. Government has done over the past month since her visit to 
address and stem the communal violence. On April 8th, the U.S. 
Special Envoy to the Organization of Islamic Cooperation Rashad 
Hussain and the Department of State's Senior Advisor on CAR 
David Brown, who is here today, led an interfaith delegation of 
religious leaders from the United States to demonstrate 
solidarity among religious communities and promote 
reconciliation.
    In a show of support for this reconciliation, interfaith 
participants from the CAR, as well as representatives from the 
government, civil society, and armed groups, signed a 
communique renouncing violence and encouraging intercommunity 
and interreligious dialogue to mitigate tensions and lay the 
foundation for renewed peaceful coexistence.
    On April 9, Ambassador to the United Nations Samantha Power 
and Assistant Secretary of State for African Affairs Linda 
Thomas-Greenfield, made their second visit to the CAR in a span 
of 4 months. Ranking Member Bass participated in the 
delegation's visit and witnessed firsthand the dire conditions 
in the country.
    During their visit, Ambassador Power, Assistant Secretary 
Thomas-Greenfield and Representative Bass met with transitional 
President Catherine Samba-Panza, commanders of the 7,000-strong 
African Union and French peacekeeping forces, and members of 
civil society to express our continued and unwavering 
determination to end the violence and support, the 
reestablishment of legitimate government.
    We pledged to work with the government and the 
international community to help her administration. In response 
to her request, we will specifically work to reestablish local 
law enforcement, transitional justice, and accountability 
capabilities to end impunity which has contributed to continued 
violence against civilians.
    We are pleased that several countries in the region, the 
World Bank, the European Union, and other development partners 
have come forward to help finance basic government services and 
support alternative work programs that will help put CAR 
citizens back to work.
    While we commend the leadership of the African Union and 
the efforts of the African Union MISCA force with support from 
the French, we also agree with U.N. Secretary General Ban Ki-
moon's assessment that a U.N. peacekeeping force with both 
military and civilian components is needed to address the 
crisis in a comprehensive way.
    On April 10, the United States joined the other members of 
the U.N. Security Council in unanimously adopting Resolution 
2149 which establishes the U.N. peacekeeping operation in the 
Central African Republic, known as MINUSCA, with up to 10,000 
military personnel, 1,800 police, and 20 corrections officers.
    MINUSCA will build on the strong work and sacrifice made by 
MISCA and the French forces as well as the European troops that 
are in the process of joining them in the CAR. MINUSCA will 
have the responsibility not only to protect civilians but also 
to support the reestablishment of governance, election 
preparations, disarmament and demobilization of combatants, 
protection of human rights, and accountability for human rights 
abuses.
    The United States will continue to reinforce the MISCA 
mission in advance of the transition to MINUSCA in September to 
maintain and increase MISCA's ability to protect the civilian 
population. We have committed up to $100 million to support 
MISCA including by providing airlift to over 1,700 peacekeepers 
to date, nonlethal equipment, and 200 additional vehicles. 
Thirty-seven vehicles have already been delivered to increase 
the ability of troops on the ground.
    On April 10, the United States also announced additional 
humanitarian assistance to the CAR, bringing our humanitarian 
assistance since October 1, 2013, to $67 million. To support 
the essential work of reconciliation and peace building, we 
have committed an additional $7.5 million to nongovernmental 
organizations to support their courageous work with CAR's 
religious leaders who are promoting conflict resolution 
initiatives to encourage peace, forgiveness, and nonviolence in 
flashpoint areas of the country.
    We strongly believe that it is important to hold 
accountable all individuals responsible for atrocities being 
committed, and we are actively working with the United Nations 
Security Council to implement targeted sanctions against 
political spoilers and the individuals perpetrating the 
violence. As Secretary of State Kerry stated, the United States 
is prepared to implement targeted sanctions against those who 
further destabilize the situation or pursue their own selfish 
ends by abetting or encouraging violence.
    Finally, I am pleased to announce that the Department of 
State has appointed Ambassador Stuart Symington as our Special 
Representative for the Central African Republic. He will begin 
his work later this month. Ambassador Symington will play a 
leading role in shaping and coordinating U.S. strategy toward 
the CAR to end the violence, addressing humanitarian needs, 
establishing legitimate governance, creating judicial 
mechanisms for ensuring accountability for those suspected of 
perpetrating human rights abuses, and helping the CAR move 
through an inclusive transition process leading to democratic 
elections.
    Chairman Smith, Ranking Member Bass, and other members of 
the subcommittee, we are determined and committed to ending the 
human suffering in CAR and supporting a peaceful and durable 
resolution to the crisis. We remain engaged with our 
international partners, and we look forward to keeping you and 
the committee engaged and informed of our efforts. I would be 
pleased to answer your questions. Thank you very much.
    [The prepared statement of Ambassador Jackson follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                              ----------                              

    Mr. Smith. Ambassador Jackson, thank you very much for your 
testimony and for your work. It is all appreciated.
    I would like to now yield to Assistant Secretary Anne 
Richard for her testimony.

 STATEMENT OF THE HONORABLE ANNE RICHARD, ASSISTANT SECRETARY, 
 BUREAU OF POPULATION, REFUGEES AND MIGRATION, U.S. DEPARTMENT 
                            OF STATE

    Ms. Richard. Thank you very much, Mr. Chairman, Ranking 
Member Bass, other members of the subcommittee, and thank you 
throughout the year for your dedication to human rights and 
humanitarian causes. We greatly appreciate that. And I 
appreciate the opportunity today to brief you on the 
humanitarian crisis in the Central African Republic.
    As you said, it is unusual to have two witnesses from the 
State Department, but because I was just in Bangui at the 
beginning of April we thought it might make sense to come along 
and provide some eyewitness testimony from what I saw on that 
trip.
    Principal Deputy Assistant Secretary Jackson has provided 
you with a comprehensive overview of the situation, so I want 
to focus on my remarks on the travel that I had at the 
beginning of April to Chad and also to Bangui, Central African 
Republic on April 7. And I want to highlight the work that the 
Bureau of Population, Refugees, and Migration is doing, and 
also we are doing that together with U.S. Agency for 
International Development to address humanitarian needs.
    As you know, nearly 1 million Central Africans have been 
forced to flee their homes, two-thirds are displaced within the 
Central African Republic, and one-third have fled to 
neighboring countries and thus are now refugees, and many of 
them have fled since last December. Each and every one of these 
uprooted people has stories of personal tragedy and loss 
including family members killed, wives and children raped and 
abused, and dreams shattered.
    In Chad, I traveled to the south to areas near the border 
with the Central African Republic and also toward a transit 
center in N'Djamena. I spoke with one Muslim man who showed me 
photos of the mutilated body of his father. The parents of five 
children, including a newborn baby, told me they had lost 
everything, and people have brought very little with them and 
some were using what little they had to build very rudimentary 
shelters to house their families.
    I travel a lot to refugee situations, to displaced persons' 
camps. People were in very difficult shelter situations and it 
was, obviously they were in places that had been thrown 
together very quickly and they were safe for the moment, but it 
was certainly, what I saw was nothing for people to live in for 
any length of time.
    In Bangui, CAR, I spoke to several women, all Christians 
and all living in extremely difficult conditions with their 
children at the M'Poko airport internally displaced persons 
site. And as you may have seen, Ranking Member Bass, the IDP 
site is right there on the edge of the airport so we didn't 
have to travel far to meet with them.
    While their homes were in a nearby neighborhood they all 
sought protection at the IDP camp because they were afraid that 
if they went back to their homes they could be hurt in the 
crossfire, in the violence, and the gunfire. In all my 
meetings, security was the number one topic of concern. From 
Cabinet Ministers to U.N. leaders to refugees and internally 
displaced persons themselves, all spoke of the need to restore 
security and a sense of law and order in the country.
    And this is the number one message I want to bring to you 
today is because we heard it unanimously from everyone, was 
that they were concerned about the violence. When I asked 
refugees why they had fled, they all mentioned fear of attack 
and concern for their families. In Bangui, the Minister of 
Rural Development said she had a program to distribute seeds to 
farmers, but the program would be worthless if farmers did not 
feel safe enough to plant their fields.
    I cannot reiterate strongly enough the importance of robust 
U.S. Government support to the African Union's stabilization 
mission in CAR, MISCA, and the new U.N. integrated mission in 
CAR, MINUSCA. The restoration of security is essential to 
creating conditions that will one day permit these 1 million 
uprooted people to return home.
    Meanwhile, the U.S. Government is committed to working with 
the international community to provide lifesaving assistance 
inside CAR and in neighboring countries and to structure our 
aid programs to enhance efforts to protect the displaced.
    During my visit to Chad I was particularly struck by the 
incredible hospitality of the Chadian people and their 
government. They had not only opened their doors to 92,000 
Central African refugees, but were also welcoming the return of 
an equal number of Chadian migrants who had been living in the 
Central African Republic for decades but were no longer safe in 
the country.
    I know this same degree of hospitality has been extended by 
the Democratic Republic of the Congo, the Republic of the 
Congo, and especially Cameroon which now hosts the largest 
number of refugees from the Central African Republic at 
184,000.
    And the other point to make about Chad as you all well know 
is that they have for over a decade hosted refugees from 
Darfur, so they already had many refugees living in the 
country. I was also tremendously impressed by the dedication 
and commitment of relief workers who at great risk to 
themselves were struggling to gain access to vulnerable 
populations to deliver aid including food, water, shelter, and 
health care.
    Sadly, relief workers too have lost their lives including 
three people working with Medecins Sans Frontieres who were 
killed this past weekend in northwest Central African Republic. 
They were simply trying to deliver health care.
    In Chad, newly arriving refugees were receiving only half 
of the recommended daily food ration because World Food 
Programme resources are stretched so thin. Several refugees 
approached me personally and told me that they did not have 
enough food to feed their children and they were very concerned 
about that.
    And I have to say that that doesn't usually happen when I 
travel to refugee camps. Usually if people have reached a 
refugee camp they are safe and they are cared for. In this 
particular case, I talked to the World Food Programme about it 
and they said they knew that the food was under the recommended 
levels and they did not blame the United States. They said the 
United States had been generous but that the other countries 
had not come through with their shares.
    In CAR, conditions in the IDP camp at the Bangui airport 
were deplorable in terms of overcrowding. Shelter was poor. 
International nongovernmental organizations in partnership with 
local authorities were doing their best to address gaps. It is 
clear to me that the nearly $67 million the U.S. Government 
through the PRM Bureau and also through USAID have provided so 
far this year is money well-invested. Our work is certainly not 
over.
    Since my return, the Office of the U.N. High Commissioner 
for Refugees found it necessary to take the extraordinary step 
of evacuating the last Muslim population from Bossangoa and 
taking them to Chad, essentially helping them to become 
refugees, and we are not normally in the business of turning 
people into refugees. We normally try to prevent that situation 
from occurring. Others in Bangui have been evacuated to safer 
spots inside CAR. These are extraordinary steps and they were 
not taken lightly. It was done to avoid massacres, frankly, and 
so very much as a last resort measure.
    On April 16, the United Nations released its 2014 Central 
African Republic Regional Response Plan which calls for $274 
million to address the crisis. We will review both appeals and 
provide additional funding in the near future. Thanks to 
Congress, and this is a very important point, thanks to 
Congress we have appropriations to do more this year, but as 
you know we are contending with too many humanitarian 
emergencies. Unrest in the Central African Republic is 
happening at the same time as upheaval and violence in South 
Sudan. Secretary Kerry is in meetings today in Addis about 
South Sudan and widespread conflict in Syria.
    While humanitarian funding will certainly help keep people 
alive, let me again remind you of the plea made by refugees and 
IDPs during my recent visit. Above all else they wanted a 
return to security and stability in the Central African 
Republic. They wanted conditions that would permit them to 
return home, rebuild their lives, rebuild their homes, go back 
to work in their places of business. This should be our highest 
priority as well.
    Representative Smith, Ranking Member Bass, and members of 
the subcommittee, I thank you for your support and for giving 
me the opportunity to address you today and I am happy to 
answer your questions.
    [The prepared statement of Ms. Richard follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. Thank you so very much, Ms. Richard. To begin 
the questioning just let me ask a number of questions starting 
with Mr. Ambassador. With regards to peacekeeping, when can we 
realistically expect peacekeepers to be on the ground 
displacing those who are being augmented out because of those 
conflicts that we all know and vested interests that have 
compromised their mission? Are we talking the fall? And is 
there any way to accelerate that process? Because delay is 
denial obviously for those who are being hurt and/or killed.
    Let me ask you as well, and maybe this would be to you, Ms. 
Richard. My understanding is that our humanitarian assistance 
numbers approximately $67 million. And the question would 
arise, why are faith-based organizations only getting $7.5 
million given the outsize role that they are playing in the 
Central African Republic?
    As we know, when Bishop Nongo was here, he was concerned 
that he is sheltering 35,000 people. And how much assistance 
are we giving to those NGOs or faith-based entities that could 
have high-impact because they know and are understood and 
respected by the people that they deal with? It seems that that 
ratio is very much skewed toward not helping faith-based 
entities, and if you could give some insight into that.
    Kasper Agger from Enough makes the point in his testimony 
that combatants, politicians, businessmen, and diplomats were 
all giving him the same excuses and reasons for the crisis in 
the country, lack of leadership and exclusion of citizens. But 
he also makes the point that--and I thought this was very 
interesting--that some of the key drivers of violence are the 
diamonds and the poaching. And if you could speak to that issue 
and that there is a need for sustained, regional U.S. 
diplomatic engagement that looks at those aspects of it. How do 
we dry up those nefarious enterprises?
    Let me also ask you as well, Madeline Rose in her testimony 
points out that if we fail to address CAR's crisis quickly and 
correctly, Mercy Corps is concerned that the situation could 
metastasize into a new decades-long conflict transcending the 
corridor from the Sahel to South Sudan, and makes the point 
that even with the anticipated EU reinforcements, the enormity 
of challenge for peacekeepers outstrips capacities.
    Is this designed potentially to fail? And I am not assuming 
any ill will here, but is it being driven by insufficient 
resources? You just mentioned that other countries have not 
come through with their commitments. How much of an unmet need 
do we have with regards to peacekeeping?
    What kind of force is needed ideally to really end this 
violence, and is what is configured enough? Is the money 
enough? How much are we giving to peacekeeping? What are the 
others giving? And maybe this one could be for the records, but 
when you say other countries are not coming through, if there 
could be a listing of those countries, commitments made, 
commitments unmet, and there are large numbers of countries 
that could do a heck of a lot more, I would think, that are not 
doing it.
    And finally, and I will have other questions, but maybe you 
could start with those and then I will get back.
    Ambassador Jackson. Thank you, Mr. Chairman. As for the 
U.N. peacekeeping force, we anticipate their arrival in mid-
September. However, I want to note that the U.N. has already 
had senior officials on the ground to do the planning and the 
coordinating with the African Union and French forces, and 
European Union troops are beginning to arrive and they have 
started to train 480 police and gendarmes from Central African 
Republic.
    We are also today having Assistant Secretary Thomas-
Greenfield, who is with Secretary Kerry in Addis Ababa, meet 
with the African Union to discuss the deployment of additional 
African troops from Burundi and Rwanda. We hope that that will 
take place very soon and we are positioned to move those troops 
quickly. These troops would replace the Chadians who withdrew 
at the end of March.
    Mr. Smith. About how many are we talking about, and what 
would be the force that would make the difference and are we 
getting close to that or at that number?
    Ambassador Jackson. Mr. Chairman, I honestly don't know 
what the force need is. We will be going from 7,000 to about 
8,200 with the arrival of these additional troops, assuming 
that the African Union approves both the Rwandan and Burundi 
contributions. The EU presence will go from about 100 at 
present to 500 present so that will bring us up to close to 
9,000.
    Mr. Smith. Do military planners at the Pentagon and at the 
U.N. say that that is a sufficient force with a robust mandate 
to bring some peace to these people who are suffering?
    Ambassador Jackson. Well, let me answer your question a bit 
differently, Mr. Chairman. In terms of displaced people in 
Bangui, we have seen the number decline from 500,000 to 
200,000, which is not to suggest that the situation is not 
atrocious. And the removal of the Muslims and the flight of the 
Muslims contributes to those numbers, so I don't want to be 
misleading.
    But the fact that the number of internally displaced people 
in Bangui is declining, I think, shows that MISCA and the 
French forces are having some impact. And as we get these 
police and gendarmes trained, we are hopeful that those numbers 
will be sufficient to restore security. I think we are going to 
have to look at this on a regular basis and see what progress 
is being made, but to date the progress is not adequate and we 
acknowledge that.
    As for peacekeeping more broadly, our missions and the U.N. 
missions in Mali and South Sudan are both under-subscribed. We 
are in conversations with partners about plussing up those 
missions as well as contributing to the mission in Central 
African Republic, but it has been a difficult process to 
identify capable peacekeepers.
    Finally, you spoke about diamonds and poaching. Central 
African diamond exports are currently suspended under the 
Kimberley Process, but we are hopeful that as the government 
can restore authority in combination with the peacekeepers that 
legal diamond exports can once again start, and this would 
provide the government with revenue that is needed to pay 
salaries and provide other basic services.
    As for poaching, because of the conflict it is difficult to 
know how much poaching has taken place, but it is clearly a 
problem in the Central African Republic as one of the countries 
that still has a significant population of elephants to poach.
    Mr. Smith. Thank you.
    Ms. Richard. On the question of the funding distribution, 
it is true the U.S. is providing nearly $7.5 million in funding 
to support conflict mitigation, reconciliation, and 
peacebuilding including interreligious peacebuilding efforts. I 
would expect that these efforts would not require as much 
funding as the type of large-scale humanitarian operations that 
are being carried out for so many people in the Central African 
Republic and in the region. All of the neighboring countries 
are affected.
    And in addition, some of the nongovernmental organizations 
that are responding to humanitarian work are indeed faith-based 
groups and that includes Catholic Relief Services that is 
speaking today and that gets funding from the USAID's Office of 
Foreign Disaster Assistance. And they are on the list of one of 
the groups that is providing logistic support and relief 
commodities in the region.
    And then in addition, we have several high-level 
delegations going as you heard, and one of those was an 
interfaith group from the U.S., so that is additional costs 
that are not reflected in the $7.5 million. I think we are 
doing a lot, and I think that some of it is reflected in the 
funding and some of it is perhaps diplomatic efforts that are 
within the State Departments base budget.
    So we have the $100 million you have heard to support the 
current peacekeeping. We will support the U.N.'s peacekeepers 
as we do year in and year out thanks to congressional 
appropriations. The $67 million in humanitarian assistance 
working with nongovernmental organizations that are across the 
country, and I think this network of nongovernmental 
organizations that are normal partners but that are present in 
really sort of far-flung locations, hard to reach places across 
Central African Republic, is very, very important for us.
    Working in the neighboring countries, the U.N. is moving 
people away from threats as you have heard. The high-level 
visits, Samantha Power going twice but also other groups, our 
diplomats have participated in all the conferences on the 
Central African Republic that have taken place in New York, in 
Brussels, in Africa.
    We have now Stu Symington named as the Special 
Representative. We are looking into having, restoring the 
diplomatic presence in Bangui and that was also going on during 
this early April set of visits. And then in addition to that we 
have this money for conflict mitigation and peacebuilding.
    Mr. Smith. Could you provide us a list of groups that are 
getting the money, the humanitarian assistance, and what might 
be anticipated going forward particularly as it relates to 
faith-based? Because again, I was moved and I am sure the 
subcommitte was that Bishop Nongo was dealing with so much on 
an absolute shoestring. And he was not going to let a single 
person go unhelped even if he didn't have the money.
    I mean it was just, and it seems to me we need to be 
backstopping people that are on the ground, have the 
credibility, and have a record as he and so many others do, and 
so I just hope we are not bypassing them unwittingly or for any 
other reason. So if you could provide that for us that would be 
very helpful.
    Ms. Richard. Absolutely. On the issue of other countries 
not providing funding, the World Food Programme resources are 
stretched thin, not just in the Central African Republic but in 
the entire region and it is a very difficult situation. And 
they are doing so much good work there and also in the Middle 
East with the Syria crisis too.
    So I regularly meet with World Food Programme colleagues. 
As you know, an American runs the World Food Programme. One of 
their issues is that the European Union's humanitarians, ECHO, 
had a cash flow problem, so they will have funding later this 
year. They will provide it. But you can't go back in time and 
take that funding to feed people. And so this is an example 
where a cash-flow problem, which is not unheard of in 
Washington sometimes, is actually having real damage on the 
ground. And so that is a shame.
    And then the other thing that we would like to do is bring 
new donors to the table, and we have succeeded in some respects 
with the Syria crisis in getting Gulf states more involved. But 
we need more countries to step forward and take up the 
humanitarian cause and provide funding so that the U.S. share 
stays at an appropriate level. A robust level, a healthy level 
thanks to you all, but also that it be a multilateral 
undertaking.
    Finally, you had asked about restoring law and order. I 
really think in talking to experts that it is not just a matter 
of peacekeepers, it is also a matter of the police, the 
judicial system, the prisons. This is not my area, but this is 
what I heard from people there.
    So in coming back, Linda Thomas-Greenfield and I have met 
with Bill Brownfield who is our counterpart, Assistant 
Secretary for International Narcotics and Law Enforcement, and 
we are all working to try to figure out what particular role 
can the U.S. play, in addition to what other countries are 
doing, to help ordinary citizens enjoy the basic public safety 
that they used to enjoy in Bangui and other cities and towns.
    Mr. Smith. Lastly, Mr. Ambassador, you said pre-genocidal 
stage at your last hearings here. Is it genocidal now?
    Ambassador Jackson. Mr. Chairman, we really haven't 
considered the question of whether it is genocidal or not. The 
fact is, horrible atrocities are taking place and we know that 
at least 2,000 people have died. I don't think it matters what 
word we use, but the situation is horrible and we are doing 
everything we can to reverse it.
    Mr. Smith. I appreciate that. I do think it matters but I 
respect the difference.
    Ms. Bass?
    Ms. Bass. Alright, I know that there is going to be a call 
for a vote soon, so we know we will be interrupted, but anyway, 
I will get started.
    I am real concerned about, as I mentioned in my opening 
comments about the displacement of the Muslim population and 
essentially the stage that that sets especially for extremists 
to kind of enter that population. And I believe, Ambassador 
Jackson, you were talking about the movement of the population 
toward the north.
    So I am wondering if, I mean, I am sure you share those 
concerns, but if there is any evidence of that becoming 
problematic in terms of outside forces coming in and trying to 
take advantage of the fact, the revenge killings that have 
happened.
    Ambassador Jackson. Congresswoman, we have certainly been 
looking at the question of outside forces coming in just as the 
Lord's Resistance Army has come in. To date we have not seen 
that happening. But this separation of religious communities 
and de facto partition of the country into Christian and Muslim 
areas is very troubling, and I believe that the sooner we can 
restore basic security so that people feel safe returning to 
their homes, the sooner that we will be able to address this 
problem and avoid long-term partition and consequences that 
would come from that.
    Ms. Bass. One of the things about Rwanda that was so, just 
hard to imagine but I know it is one of the reasons why the 
country has been successful in its development since the 
genocide, but their whole reconciliation process, the fact that 
people really live down the street and their neighbors are 
folks that might have slaughtered members of their family.
    And I am just wondering, I was just there for just such a 
brief time, but if the Rwandans are involved in terms of 
helping the CAR leadership toward the future of how to have a 
reconciliation process.
    Ambassador Jackson. I don't know if there have been formal 
discussions, but one of the reasons we have been so pleased to 
have Rwanda and Burundi contribute peacekeepers is because of 
their own history of genocide in both countries. And we believe 
that the troops can talk with people, engage with people, and 
encourage them to avoid the conflict that we are seeing.
    Ms. Bass. And we did go to Burundi and so certainly had 
some concerns about what we saw there and what looms there in 
terms of the election next year. You mentioned the food supply 
as being below what is needed. And I believe, Ambassador 
Richard, you said that the U.S. had been generous but other 
countries had been lacking. And I believe the chairman asked 
the same question in terms of which countries and dollar amount 
and whether you can answer it now or not. Is that pretty much 
what you were asking? I would like to know that information as 
well, because I am wondering if there are ways that we can step 
up pressure on those other countries so that they do carry 
their fair share.
    Ms. Richard. Well, we can work with the USAID to get you 
the breakdown of who is contributing to the World Food 
Programme and specifically in the Central African Republic and 
in the region. But I want to repeat that one missing partner 
who is normally there with us are the Europeans, and it is an 
unusual thing this year that they are having cash flow 
problems.
    So normally, the U.S. and Europe together lead the world in 
humanitarian response, and other countries that year in and 
year out step forward including Europeans and the European 
Union are the Canadians, Australians, New Zealanders, Japan, 
Korea more and more. Turkey, I met yesterday with the Turkish 
Ambassador, Turkey is stepping forward to play a larger role as 
a donor internationally. And then with Syria we see Gulf states 
stepping forward.
    But we would like to see more countries who haven't been 
traditional donors join us, especially in a year like this one 
where we have three of what the United Nations call Level 3 
emergencies. Syria, South Sudan, and the Central African 
Republic. And I am proud that our country is doing so much. I 
am proud when I meet with my counterparts from other countries 
that I can speak up about how much Americans are doing. But I 
also think this system only works when other countries join us 
in these kinds of enterprises.
    Ms. Bass. Well, France is certainly playing a leading role. 
What are they doing in terms of pushing other EU countries?
    Ms. Richard. France is playing a leading role in the 
situation in this particular country, and also in terms of the 
peacekeeping piece of it.
    Ms. Bass. Right.
    Ms. Richard. But they are not leaders necessarily on the 
humanitarian funding piece, whereas in Brussels they do get 
credit for contributing to the overall European contributions. 
But also DFID, the Department for International Development in 
London is the leading donor as well. Within Europe, the UK is 
really the top donor, I think, with us on the international 
stage.
    Ms. Bass. So last question. I am wondering about the 
diaspora that is here and if you feel there might be a role 
that the diaspora that is here can play. There is a young man 
in the audience who often comes to the hearings, Yves Kongolo, 
who is from the Central African Republic and has an NGO. And I 
often work in the breakfasts and the other programs that we do 
here on the Hill, work a lot with the diaspora, and I am just 
wondering if you have any thoughts about how the diaspora here 
might be helpful there.
    Ms. Richard. It is a great question. I haven't met with 
members of the diaspora from the Central African Republic. I 
regularly meet with diasporas. Syrian-Americans. I met recently 
with Eritrean-Americans. Because we run the program, response 
to the program to resettle refugees in the United States, I am 
regularly meeting with Somalis around the United States, and 
more and more Iraqis around the United States.
    So it would not come as a surprise to any of you that we 
love working with diasporas, meeting with diasporas, and 
figuring out ways to bring their talents, connections, ability 
to message, especially in the case here of messages of peace, 
reconciliation, stability, tolerance. I think that is a key 
thing that they could play.
    Ms. Bass. Well, maybe you have just described a role that 
we could play, which is to facilitate that introduction for 
you. Because I hear all the time of people wanting to play very 
specific roles exactly like that but also in development. So I 
will have another group of diaspora for you to meet with.
    Ms. Richard. Happy to.
    Mr. Smith. Mr. Weber.
    Mr. Weber. Thank you, Mr. Chairman. And I guess this 
question is for you, Mr. Jackson, or for you, Ms. Richard, 
either one. The Chadian soldiers that came in and killed, 
remember, and injured so many. Any identification? Any idea who 
they are? Any accountability there?
    Ambassador Jackson. Congressman Weber, we don't really know 
who they are. But we will be looking at the units in terms of 
Leahy vetting for future training, and the need to look very 
carefully at the participation of Chadians in future 
peacekeeping operations based on their conduct in the Central 
African Republic.
    Mr. Weber. Well, I think long term we need to be sending 
the signal that that won't be tolerated and somehow there has 
to be accountability and the perpetrators brought to justice so 
that there is no recurring incidents of that nature. Any way to 
put pressure on their government to do that to aid in that?
    Ambassador Jackson. I understand that the Chadian 
Government is doing an investigation and we will look to ensure 
that they are held to account for their actions.
    Mr. Weber. I guess unlike the other mall shootings there is 
no video. There is absolutely no evidence to this, or is that--
--
    Ambassador Jackson. I am not aware of any video. The only 
thing that I am aware of are testimonies by some of the 
victims.
    Mr. Weber. Which one of our agencies coordinates with the 
Chadian Government to say you have got to do more to bring 
these perpetrators to justice? Who follows that up?
    Ambassador Jackson. The Department of State does, and 
specifically our Ambassador-at-Large for War Crimes Issues, 
Ambassador Rapp, and he has been in the region.
    Mr. Weber. Okay. I was doing a little research on that 
event, and even Aljazeera, the news organization, said this was 
an underreported occurrence. I didn't see it. I looked at some 
of the other news agencies and I actually saw it, but they 
didn't give it the same coverage. So I think it is imperative 
for us to keep on the forefront and to keep that pressure on so 
that those kinds of people know that we won't allow this going 
forward. I think I remember----
    Ms. Richard. Congressman?
    Mr. Weber. Yes, ma'am?
    Ms. Richard. It may have been underreported in the United 
States. There was a lot of coverage of it in the region, and 
the reason I know that is because it was still unfolding during 
our visit. And when I was in Chad they decided to bring their 
peacekeepers home, and at the same time there was a U.N. report 
on the incident that came out. So there has been a lot of 
attention, and these situations are complicated because you 
don't want peacekeepers abusing people in any way, shape or 
form. They are there to protect people.
    At the same time, we had Chad doing so much to try to 
restore stability overall and we needed more peacekeepers, not 
less. So you are absolutely right that you cannot support, we 
cannot support sending people to a country where they abuse the 
local people. That is not the purpose at all, and so we have to 
be vigilant in keeping that from happening in the first place 
and then holding people accountable when it does happen.
    But I do think there is attention being paid to it, and I 
am sorry we don't have specific answers for you today, and I 
think we have to stay on top of it.
    Mr. Weber. Okay, thank you. I remember our colleague over 
here, Ranking Member Bass, I think she said religious 
differences were not the origin of the conflict. Would you 
elaborate on what you think is the origin of the conflict?
    Ambassador Jackson. Congressman, this is a country that has 
had a long tradition of conflict. You will remember that 
Emperor Bokassa was famous for his cannibalism. This is a 
country that has had conflicts between grazers and 
agriculturists. We have seen coup after coup. This is the third 
time that we have evacuated our Embassy because of unrest in 
the Central African Republic. There is a long and sad history 
here. I hope this time that we can do better to get it right so 
that we don't have another repetition of the unrest.
    Mr. Weber. Some of my research said the former President or 
Prime Minister bankrupted the country, had a lot of graft, a 
lot of corruption, and then he was basically was gone. Whatever 
happened to him? Was there any attempt to hold him accountable?
    Ambassador Jackson. We have actually spoken with former 
President Bozize, and encouraged him to issue public statements 
calling for calm. We are looking at his role in the current 
violence. And again, as my colleague said, we want to hold 
those accountable for the violence responsible.
    Mr. Weber. Okay. And then I think you all said earlier 
that--and we are running out of time. I know they have called 
votes. You are expecting some more peacekeeping forces in mid-
September, 480 gendarmes?
    Ambassador Jackson. There are 480 gendarmes. They are 
Central Africans who are undergoing training at present. I 
would expect that they would be active long before September.
    Mr. Weber. What does that make the total? You said 7,000 to 
8,000?
    Ambassador Jackson. So we are currently at approximately 
7,000. We are looking at adding a battalion of Rwandans which 
would be 850 people. We are looking at adding 400 peacekeepers 
from Burundi. That would bring the total to about 8,200, plus 
500 European troops from various countries would be 8,700 in 
total, prior to September when the peacekeeping operation would 
come into effect.
    And if I may add, Congressman, I think it is really 
important to note that while the U.N. peacekeepers are not yet 
in place some of the troops that are there will transition to 
the U.N. force. But the U.N. political mission is in place and 
the deputy is our former Ambassador to the Central African 
Republic, Ambassador Larry Wohlers.
    Mr. Weber. Okay. In the interest of time I am going to 
yield back. Thank you.
    Mr. Smith. Mr. Marino?
    Mr. Marino. Thank you. I am going to do a lightning round 
here. I am not able to come back, I have another commitment. 
But get your pencils out please, and this should be a matter of 
record. First of all, why has not the International Criminal 
Court interceded in here in going after these murderers? Number 
one.
    Number two, you said that the troops will be, U.N. troops 
will get there in September of this year. Why so long? And I am 
not saying so long in a pejorative sense because perhaps you 
can describe the process you have to go through. I do not 
understand the process, and if anything takes more than 5 
minutes for me it is too long. How many U.N. troops will be 
there? When did these murders start to show up on State's radar 
and the U.N. as well, I am curious to see, because that goes 
into my question as why is it taking so long.
    Are the Muslim and Christian world leaders, the world 
leaders of the Muslims and Christians, are they standing up and 
saying to their religious followers, knock this off, or do they 
have any role in visiting, or representatives visiting over 
there telling their religious followers that this will not be 
tolerated from their religious standpoint?
    And since 1996, the DRC, it has been embroiled in violence. 
Over 5.4 million people have been killed. That is something 
that just does not take place over a year. It has taken place 
over years, and my question is, why not long before this? And 
with that I yield back.
    Ambassador Jackson. So I will try to respond very quickly. 
We have become very aware of the murders since November and 
December, and that is when the bulk of the violence has taken 
place. In terms of the movement of the U.N. peacekeepers, the 
recruitment is what takes so long. One of the reasons that the 
State Department and the U.S. Government supported the standing 
up the African Union force was precisely because they could 
deploy faster than the U.N. and since we are seeing a roughly 
6-month timetable for U.N. deployment, I think that our 
conclusion that we needed to get the African troops in place 
was the right one.
    But it is very important to make this transition to a force 
that will have roughly 8,000 troops soon to almost 12,000 in 
September, assuming we can find additional peacekeepers. And 
the religious leaders from various countries including the Holy 
See are taking an active role.
    Foreign Ministers of Turkey and Guinea were just in Central 
African Republic this week talking with religious leaders. The 
Organization of the Islamic Conference Special Envoy, the 
former Foreign Minister of Senegal, Cheikh Tidiane Gadio, was 
there with them. We believe that the religious leaders are 
working well with their counterparts in Central African 
Republic and doing what they can to appease the situation.
    Mr. Marino. But don't you think it would be beneficial if 
the religious leaders came out on an international level and 
made these statements?
    Ambassador Jackson. I do think it would be useful. And just 
as we broadcast President Obama's message to Central Africans 
in December, I think having messages from world religious 
leaders could be useful and it is something that we have been 
discussing as we bring religious leaders to visit Central 
African Republic.
    Mr. Smith. Thank you. Can I just ask you--we are out of 
time on this vote, but what role, if any, has the Atrocities 
Prevention Board played? Again, I mean we have all been raising 
issues. You have been raising this. Have they been AWOL or have 
they been very much a part of the effort to try to prevent and 
now resolve this?
    Ambassador Jackson. Mr. Chairman, the Atrocities Prevention 
Board has met. Their most recent meeting was looking at Nigeria 
and Burundi. But there have been regular meetings and we have 
been working hand in hand to make certain----
    Mr. Smith. They met on CAR?
    Ambassador Jackson. I haven't seen the agenda for all the 
meetings, but I believe--I can get back to you on that.
    Mr. Smith. Would you get back to us? Because we certainly 
haven't heard any outcomes document or any recommendations from 
them. I am just wondering what role they have played. Because 
it was stood up with great fanfare as I said in my opening, and 
it certainly has a great deal of promise. Is that promise being 
met?
    Ambassador Jackson. Mr. Chairman?
    Mr. Smith. Yes.
    Ambassador Jackson. I apologize. My colleague just advised 
that there has been at least one APB meeting on Central African 
Republic.
    Mr. Smith. Do you know what their recommendations were?
    Ambassador Jackson. I do not, but I will get back to you.
    Mr. Smith. Because it would seem that people like yourself, 
you should at least know what this group is recommending. Thank 
you.
    We stand in brief recess. I do have a number of other 
questions but the vote precludes that. A brief recess and then 
we will come back to our second panel. And thank you so very 
much.
    [Recess.]
    Mr. Smith. The subcommittee will reconvene, and I want to 
apologize to all of our very distinguished witnesses for that 
delay. We did have a series of votes. There was no way we could 
cut that any shorter.
    I would like to begin with our second panel and beginning 
first with Mr. Scott Campbell, who is the Catholic Relief 
Services regional director for Central Africa. He coordinates 
CRS programs in Burundi, Cameroon, Chad, Central African 
Republic, and the Democratic Republic of the Congo, the 
Republic of Congo, and Rwanda.
    Since joining CRS, Mr. Campbell has coordinated food aid 
during the Kosovo crisis, overseen the emergency response to 
the 2004 tsunami in the northern Indonesian province of Aceh, 
and directed CRS's response to the 2010 earthquake in Haiti. He 
also served as CRS's county representative to Angola, Haiti, 
and the Philippines.
    And I would note parenthetically that I myself, along with 
a few other members, were in Aceh and applaud the work that was 
done during the tsunami in 2004 by CRS, and it is great to know 
that you were there making sure that that all happened because 
otherwise it would have been far worse than it actually was.
    I would then like to introduce Ms. Madeline Rose, who is a 
policy and advocacy advisor for Mercy Corps, a global aid 
agency that provides assistance to those living in countries 
suffering from natural disaster, economic collapse, or 
conflict. She leads Mercy Corps' policy and advocacy portfolios 
on sub-Saharan African programs, including work with youth, 
development in fragile states, counterterrorism and 
humanitarian access, encountering violent extremism, and 
atrocity prevention.
    She has also worked for the Friends Committee on National 
Legislation, in Congress, at the United Nations with community-
based organizations in Zimbabwe, South Africa, and for the 
Silicon Valley tech company, NetApp.
    We will then hear from Mr. Kasper Agger who is a Uganda-
based field researcher for the Enough Project. We certainly 
have had John Prendergast here many times, who heads up Enough, 
a nongovernmental initiative dedicated to ending genocide and 
crimes against humanity. His work focuses on the Lord's 
Resistance Army and includes on-the-ground research in the 
remote areas of Uganda, South Sudan, the Democratic Republic of 
the Congo, and the Central African Republic, that have been 
most affected by the LRA crisis.
    Mr. Agger's advocacy-based research aims to identify 
recommendations and solutions to the LRA conflict. Prior to 
joining the Enough Project, he worked for the Northern Uganda 
Peace Initiative and the U.N. Environmental Programme.
    We will then hear from the Honorable Robin Renee Sanders, 
who is the CEO of the FEEEDS Advocacy Initiative and and owns 
FE3DS, LLC, both of which craft economic development and 
business strategies for Africa. At these organizations, she 
focuses on food security, education, the environment and 
energy, economics, development, and self-help programs, 
particularly for small and medium enterprises.
    Prior to this, she served as the U.S. Ambassador to Nigeria 
and the Republic of Congo and was the U.S. Permanent 
Representative to ECOWAS. She served twice as Africa Director 
of the National Security Council at the White House. We have a 
very distinguished panel of knowledgeable experts, and I would 
like to now yield to Mr. Campbell to begin the testimony.

STATEMENT OF MR. SCOTT CAMPBELL, REGIONAL DIRECTOR FOR CENTRAL 
                AFRICA, CATHOLIC RELIEF SERVICES

    Mr. Campbell. Thank you, Chairman Smith, for this 
opportunity to testify on behalf of Catholic Relief Services. 
We are very grateful to you and your leadership and the 
interest in the future of the Central African Republic and its 
people.
    So I am Scott Campbell. I am the regional director for 
Catholic Relief Services covering the Central Africa region, 
and that is seven countries, the two Congos, Rwanda, Burundi, 
Chad, Cameroon, and Central African Republic. CRS is present in 
about 100 countries around the world and providing humanitarian 
assistance and development programming. We have been in CAR 
since 1999 doing programming and work very closely with our 
church partners in the country. Our work is mostly funded by 
the U.S. Government, CRS private funds, and other Caritas 
sister agencies.
    I was recently in CAR for a 3-week period just before 
Christmas to mid-January, and then again for 3 weeks in March. 
In fact, my colleague, Ms. Rose, I met her there during the 
second visit. So I would like to share with you a few ideas 
about what has transpired there in the country and how we are 
prioritizing our work.
    First of all, CRS is present throughout the whole breadth 
of the country, from the southeast covering Obo, Zinga, Rafai, 
Bangassou, in the LRA-affected areas. And we have a very 
important USAID-funded program there, working with communities 
affected by the Lord's Resistance Army. We are present in the 
capital with our partners, in the south in Lobaye Province, 
Mbaike, and Boda, as well as in the northwest in Bossangoa and 
Boda. And during my most recent trip I was in Bossangoa and saw 
the refugees, as you explained earlier in this testimony.
    And during that visit, I was involved with the distribution 
of non-food items to communities that just a few weeks prior 
had been attacked by Seleka rebels, and this was in the area 
called Kuki. That whole area had been completely pillaged or 
burned down, and almost all of the houses, people had very 
little left, and of course, as you are well aware, people had 
very little to begin with even before the crisis. So the 
situation is truly desperate for tens of thousands of people.
    CRS is also distributing, and will be, 7,500 households, 
reaching 37,500 people. We have done that already in Bossangoa, 
and we will do the same in the coming months in Bossangoa as 
well as Lobaye in the south. In those same areas, we have an 
initial plan to provide shelter kits for households that have 
been destroyed during the same month, in May, and the kits 
include wood for windows, doors, and tarps for roofing.
    The pillaging and destruction has also rendered much of the 
country extremely food-insecure. This is the second consecutive 
planting season that has been hampered by the crisis. Seeds, 
tools, farm animals are scarce or non-existent in much of the 
region. And with the planting season upon us, CRS is 
distributing seeds for staple crops and farming tools for 
10,000 households to respond to the critical food security 
situation.
    Additionally, other economic activities have been 
disrupted, making life even more difficult. Trading and 
importation of goods have been hindered because Muslim traders 
have fled or truckers fear to enter the country because of 
attacks and looting.
    When I was in Kuki and areas of Bossangoa, I saw heaps of 
cotton that had not been sold, and this is cotton that had been 
harvested from last year. So the much-needed cash income has 
not been flowing because of the crisis. And, generally, more 
than half the country will need some sort of humanitarian 
assistance as a result.
    But dire as this situation is, much of what I have been 
describing concerns the exterior, what we see on the outside of 
the people who are affected. A more compelling story, however, 
is what is happening inside people's hearts and minds because 
of the problem.
    It is critically important, first, to understand that this 
is not a religious war. No head of any faith group has led the 
fight against another faith group. I spoke to leaders in 
Bossangoa myself, including the mayor and his deputies in that 
city, and heard from them that they did not want to see their 
Muslim neighbors leaving the country.
    We spoke to the youth and women of the IDP camp, Ecole 
Liberte, which ironically means in Liberty School when in fact 
it was very much like a prison. And they also expressed the 
desire to stay. So there is a willingness among a significant 
portion of the population to return to the pre-crisis reality 
where people lived and worked together harmoniously and in 
peace.
    To that end, CRS has been working directly with the Inter-
Religious Platform led by the Catholic Archbishop of Bangui, 
the President of the CAR Islamic Community, and the leader of 
the Evangelical Alliance. CRS has brought together faith 
leaders in Bangui and Bossangoa in their respective communities 
to participate in 2-to-3-day workshops on social cohesion and 
reconciliation.
    This has also since included parliamentarians and other 
community leaders, and we are closely working with the Minister 
of Communications and Reconciliation of the new interim 
government. In fact, we will be sending her to Rwanda to see 
how the process worked in that country. In fact, CRS was part 
of that process over the past 20 years, and one of our Rwandan 
staff is now working in CAR to share the work he has done and 
learned in Rwanda there in CAR.
    And this whole--the workshops we have done have been truly 
transformative, and I will give one example to illustrate. One 
of the leaders expressed how before the workshop he had every 
intention of buying a gun and shooting at least one person from 
the other faith community.
    At the end of the workshop, he explained, ``I don't have 
those feelings anymore. I am ready for reconciliation.'' So the 
hate, fear, and vengeance pent up as individuals in that 
country, people need and feel that desire for release to just 
prepare themselves for reconciliation with the others in their 
community.
    The workshops have also included Muslim faith leaders in 
some of the most difficult neighborhoods in Bangui where much 
of the fighting is evident. They were considered the 
hardliners. They attended and, as a result, at that time 
decided not to leave the country as planned. And this is just 
some weeks ago. If given the opportunity, the space, and the 
support, people in the country want to rebuild the social 
fabric of the society.
    I saw truckloads of Muslims leaving the country during my 
December-January visit. Our office shares a wall with the 
Embassy of the Democratic Republic of the Congo, and across the 
street is the Ambassador to Cameroon, his residence, and they 
were leaving every single day. So we have seen directly people 
pouring out of the country.
    So this is the first step. The workshops are a first step, 
preparing the hearts and minds of leaders and communities for 
peace and reconciliation, and then they can enter into a 
process, a dialogue, across communities. Why this is important 
is because it has an immediate effect, as I was saying earlier, 
to release people from those burdens.
    But it also has the longer term effect of social cohesion 
to heal the wounds caused by the conflict, and which is the 
most effective bulwark against manipulation of the most 
extremist entities intent on serving their own aims in the 
future. It really works against the radicalization that could 
also be happening as these different communities move across 
borders.
    But more funding is required to cascade that through the 
country. This is not something that can only be pinpointed in 
certain areas. It should be cascaded throughout the country. So 
I see that there is real hope for CAR to build back communities 
as before, to be productive and harmonized.
    With this in mind, CRS and the USCCB make the following 
recommendations to the U.S. Government. First, adequately fund 
and support U.N. peacekeeping efforts to ensure that relief and 
recovery activities are tenable. Security is absolutely 
paramount. We need the right conditions in order to operate 
effectively.
    Second, provide ongoing leadership and robust funding for 
humanitarian efforts in the CAR. The U.S. Government should 
also help galvanize other donors to fulfill their pledges for 
humanitarian assistance in the country. All efforts must 
support the displaced and those are hosting them to their 
immediate needs so that their immediate needs are met, as well 
as their return when conditions allow, so that they can rebuild 
their livelihoods, plant their farms, and support their 
families.
    Support the voluntary return of refugees, so the country 
can restore its rich cultural diversity. In fact, we have plans 
of doing some cross-border work as well along the lines of what 
I described in those workshops. In fact, the workshops are 
actually paid by the U.S. Government. The USAID, people 
involved were extremely quick in releasing funding to enable us 
to do that in Bossangoa and then Bangui.
    Also, integrate peacebuilding and conflict resolution 
activities to rebuild social cohesion torn apart by the recent 
fighting and to prevent future outbreaks of violence.
    Third, affirm a commitment to CAR over the long term. We 
commend the appointing of a Special Representative for CAR and 
the U.S. Government's plan to reopen the Embassy. We further 
call upon the USG to develop plans to address longer term needs 
over the next 3 to 5 years. And this should prioritize 
reintegration of ex militia into economic and livelihood 
activities with a focus on youth. Young men need to be enrolled 
in reintegration programs that are practical and lead to 
productive job activities.
    Prioritize long-term economic needs such as reconstruction 
of people's productive assets, keeping conflict sensitivity in 
mind, and recognize that elections should not be rushed. But 
the process fully incorporates all CAR citizens, especially 
those Muslims who have fled and wish to return. Any election 
held should be well organized, free, and fair, to end the cycle 
of illegitimate leaders who have neglected the needs of the 
Central African people.
    So, Mr. Chairman and Ranking Member Bass, and the members 
of the subcommittee, thank you for your time, and I am----
    [The prepared statement of Mr. Campbell follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. No. Thank you very much for your solid 
recommendations. Thank you for the good work that Cardinal 
McCarrick and so many others have done. His most recent visit I 
think was galvanizing and underscored the point you made so 
strongly, and that is that this is not about leaders of 
religious faiths conducting either a jihad or any kind of a 
religious war, but people are exploiting extremism in order to 
kill and to rape and to maim. So thank you for bringing that 
strongly forward.
    I would like to now recognize Ms. Rose.

  STATEMENT OF MS. MADELINE ROSE, POLICY & ADVOCACY ADVISOR, 
                          MERCY CORPS

    Ms. Rose. Thank you, Chairman. And I would like to submit 
my full written testimony for the record.
    Mr. Smith. Without objection, so ordered.
    Ms. Rose. Thank you. Chairman Smith, Ranking Member Bass, 
and members of the subcommittee, thank you for inviting me to 
testify on behalf of Mercy Corps today, and for your leadership 
in mobilizing what has become a robust and generous U.S. 
Government response to the crisis in the Central African 
Republic.
    My name is Madeline Rose, and I am a policy advisor for 
Mercy Corps, a global humanitarian agency working in over 40 
crisis-affected countries in the world. Mercy Corps has worked 
in CAR since 2007, managing programs ranging from emergency 
response and conflict mitigation to youth empowerment and 
economic development.
    If there is one message that I hope you take from this 
testimony, it is that right now is the moment to secure long-
term support for CAR's recovery. The window for influence is 
closing, and we have to make smart investments now.
    In March, I traveled to Bouar to visit Mercy Corps' 
conflict mitigation and protection programs. The most 
heartbreaking meeting of my trip was the one I expected to be 
easiest. I met a judge with whom we have worked on access to 
justice programs for survivors of gender-based violence. I 
asked what challenges he was facing and how the international 
community could be helpful.
    His response was simple. He asked for replacement pencils 
and papers, which had been looted during the crisis, so that he 
could get back to work processing rape cases. Pencils. Conflict 
waged all around us. Across the street I could see civilians 
preparing convoys to flee to Cameroon, yet his primary request 
was for a pencil to go back to work and restore a semblance of 
justice to his community.
    I told this story because it underscores the complexity of 
an overlooked element of the CAR crisis right now. We are 
dealing with a multi-faceted conflict and a humanitarian 
catastrophe in one of the poorest and most underdeveloped 
countries in the world. This means that every humanitarian 
activity will be more expensive, capacity-building will 
fundamentally take longer, and political and economic recovery 
will require long-term sustained engagement.
    Three weeks after this subcommittee's November 19 hearing 
on the crisis, anti-balaka attacked CAR's capital, Bangui, 
triggering a brutal cycle of retaliation killings between 
Christians and Muslims that continues to this day. As other 
witnesses have testified here today, the cycle of retaliatory 
violence has spiraled so far out of control that it has 
deteriorated into ethno-religious cleansing.
    Ever more alarmingly, Mercy Corps sees many of the same 
trends emerging in CAR today that we have seen before in the 
DRC, the Sudans, and other contexts that become entrenched in 
protracted violence. This includes criminality, banditry, 
sexual abuses, and other crimes being committed with impunity 
across the country, massive and protracted displacement and 
protection crises developing in ungoverned and difficult-to-
access or militia-controlled territories, citizens growing 
impatient with the absence of services from the transitional 
government, losing faith in the prospects of legitimate 
civilian rule, armed actors actively targeting and recruiting 
disaffected youth, and, most alarmingly, popular support for de 
facto ethno-religious partition of the country that would 
divide the country between north and south along major natural 
resource belts.
    If we fail to address CAR's crisis quickly and correctly, 
Mercy Corps is concerned that the situation could metastasize 
into a new decades-long conflict transcending the Sahel to 
South Sudan. While the current situation is horrific, it is not 
hopeless. There are promising examples of community-based 
protection and peacebuilding all across the country. 
Humanitarian development and peacebuilding organizations have 
the commitment and absorptive capacity to scale up operations 
if additional funding is made available.
    Mercy Corps currently sees five priorities, each of which 
must be met and addressed simultaneously. The first, as my 
colleague said, is to restore security and reinforce civilian 
protection. Mercy Corps concurs fully with the Catholic Relief 
Services' request for full peacekeeping funding, and we would 
also like to add two quick additions. The first, that Congress 
consult regularly with the interagency to ensure maximum U.S. 
support to MISCA in the interim, and also to see what creative 
non-financial diplomatic tools we might be able to leverage 
that haven't been pulled out of the toolbox just yet.
    And then, secondly, just to underscore my colleague's 
comments about not rushing toward elections, we strongly oppose 
efforts to accelerate elections toward a February 2015 deadline 
if those processes would exacerbate the risk of violence 
against civilians or undermine the legitimate prospects for 
peace.
    Secondly, we ask for an increase in support for 
peacebuilding and reconciliation initiatives. The deployment of 
military and police alone will not ensure peace and security in 
CAR, as you well know. As CAR's senior-most religious leaders 
stated on their visit to Washington, DC, we must disarm the 
hearts and minds of Central Africans.
    Third, we ask for you to fulfill urgent humanitarian needs. 
The degree of human suffering is staggering, as you well know, 
yet the 2014 global humanitarian appeal is only 28 percent 
funded. The first priority for Congress should be protecting 
appropriations funding for the International Disaster 
Assistance and Migration and Refugee Assistance Accounts.
    Unfortunately, the administration's FY2015 budget request 
to Congress cuts IDA by 28 percent and MRA by 33 percent. If 
enacted, international responders will have a very difficult 
time addressing the humanitarian needs.
    Fourth, target interventions toward the protection and 
empowerment of women and girls. From January to March of this 
year, over 90 percent of the rape cases we have seen in our 
centers have been gang rapes committed by armed actors. This is 
a very significant increase in rape cases that Mercy Corps has 
seen in the Central African Republic. In addition, women have 
been marginalized across all aspects of the response and 
risking marginalized and reconciliation and recovery processes 
as well.
    Fifth, secure commitments now for transition. To date, the 
U.S. has not committed funds or communicated its strategic 
intentions in CAR beyond December 2014. This sends mixed 
signals to Central Africans, partners, and the international 
community about U.S. intentions to engage in the medium to long 
term. Efforts to reopen the U.S. Embassy in Bangui should be 
prioritized and expedited, and Congress could also be very 
helpful in accelerating the engagement of international 
financial institutions in CAR.
    Twenty years after the Rwandan genocide and subsequent 
crisis in GRC, as you so eloquently stated in your opening 
remarks, Mr. Chairman, the U.S. has stated that the prevention 
of mass atrocities constitutes a core moral and national 
security priority. If the U.S. takes its commitments to 
preventing mass atrocities seriously, now is the moment to 
secure long-term support for CAR's recovery. Atrocities 
prevention cannot be understood simply as mobilizing resources 
in the face of imminent or already-ongoing atrocities against 
civilians. It must be seen as investing in infrastructure to 
mitigate them long before they start.
    There is a long road ahead for recovery in CAR, but 
recovery is possible and critical. Thank you again for the 
opportunity to testify and for your continued support to the 
people of the Central African Republic. I look forward to any 
questions.
    [The prepared statement of Ms. Rose follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. Thank you very, very much for your testimony and 
your work.
    Mr. Agger.

STATEMENT OF MR. KASPER AGGER, FIELD RESEARCHER, ENOUGH PROJECT

    Mr. Agger. Chairman Smith, Ranking Member Bass, members of 
the subcommittee, thank you very much for this opportunity to 
testify at this critical moment for the Central African 
Republic.
    I have been working as a field researcher with the Enough 
Project and traveled to the country over the past 2 years, last 
time in February, where I spent 3 weeks in the capital, Bangui, 
looking at the drivers of the violence, the armed actors, and 
the role of natural resources, and the prospects for 
sustainable peace.
    I interviewed Seleka fighters, anti-balaka fighters, 
members of the transitional government, aid workers, and local 
journalists. I also talked with the business sector, with 
diamond traders, and people with firsthand knowledge of ivory 
poaching in the country. I also went to the IDP camps and met 
many of the displaced people.
    The people I interviewed told me that what has been 
described as religious conflict goes much deeper. The crisis 
stems from a lack of leadership and exclusion of the people 
from the decisionmaking process. What unites groups of fighters 
is not so much religion but social, economic, and political 
grievances from decades of marginalization. Many combatants are 
motivated by the promises of economic gains rather than 
religion.
    Central African fighters and the allies are part of a 
broader regional and international conflict system in which 
outside countries and armed groups compete for state-controlled 
natural resources and a general influence for resources in 
Central Africa. I also learned from my interviews that diamonds 
and elephant ivory are funding the Seleka, the notorious 
Janjaweed militia from Sudan, including the anti-balaka, who 
have all controlled diamond-rich areas and sell diamonds and 
ivory to fund their activities.
    Natural resources have also attracted the Governments of 
Chad, Sudan, South Africa, China, and France. Interventions by 
these governments have influenced security dynamics in the 
country. The interest of Chad and Sudan especially has 
contributed to the conflict. Mercenary fighters from each of 
these countries were part of the Seleka movement and committed 
horrible atrocities and looted.
    The international community as a whole can take a few 
critical steps, but we must act as quickly as possible. First, 
deploy mediators to facilitate a bottom-up peace and 
reconciliation process. We must support efforts to rebuild the 
state institutions that have come to a virtual standstill.
    We must investigate illicit diamond and ivory trading in 
the region and cut off funding sources for the armed groups. We 
must hold accountable those who commit atrocities and engage in 
economic and criminal activity. Sustained U.S. diplomatic 
engagement in the region that recognizes and addresses the 
interest of the many actors who are involved, and that targets 
the illicit sources of financing for violent actors, can 
directly contribute to sustainable peace.
    If the U.S. Government pursues low-cost diplomatic 
initiatives now that boost international efforts, we could 
prevent mass atrocities in the long run. Americans have 
provided vital financial and diplomatic support for the 
international peacemaking efforts and to MISCA. The appointment 
of Ambassador Symington as U.S. Special Representative for CAR 
will add momentum to these efforts.
    As the U.S. charts the future of its critical engagement, I 
urge Congress and the administration to not only target the 
most acute, immediate needs in the country, but also to pursue 
sustained engagement that addresses the root causes of the 
conflict. Otherwise, I fear that we will not be able to bring a 
sustainable peace to the country, which has experienced more 
than five military coups since independence in 1960.
    First, the U.S. should continue to support MISCA and 
provide strong support for the U.N. peacekeeping mission. 
Further, it should encourage the U.N. to promote an inclusive 
bottom-up peace and reconciliation process in the country, the 
decentralized nature of the conflict, the profusion of 
different actors, and the lack of a central command for many of 
the armed groups all mean that the nation requires a bottom-up 
peace approach that addresses the armed groups through local 
negotiations and local dialogues and reconciliation processes.
    I would also like to reinforce that reconciliation should 
be broad-based and not only between religious groups. Many 
people take up arms in pursuit of economic interests, so we 
need to include civil society, women leaders, youth groups, a 
broad range of actors, in the reconciliation process.
    Second, the U.S. should work with international partners to 
cut off sources of financing to violent groups. The United 
States and China, as current chair of the Kimberley Process, 
should press for the Kimberley Process to lead review missions 
to the United Arab Emirates, Belgium, and India to investigate 
the smuggling of conflict diamonds from the country. These 
efforts could identify individuals and companies against whom 
the United States and the U.N. could issue target sanctions.
    Third, the U.S. should adopt a regional approach to 
diplomatic engagement. There is an urgent need to recognize the 
motivating interest of those who are drawn to the natural 
resources and exploit fragile state institutions in the search 
for profits. The tri-border region between the Central African 
Republic, Chad, and Sudan is a largely lawless area where rebel 
groups operate relatively freely. The U.S. should work with 
international partners to develop a common policy for the 
region.
    America must continue to lead with and alongside 
international partners to address violence in the country. The 
country's most precious resources, its people, deserve nothing 
less.
    Thank you very much. I will be happy to take any questions 
you might have.
    [The prepared statement of Mr. Agger follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. Thank you so very much as well for your 
testimony and recommendations.
    Ambassador Sanders.

STATEMENT OF THE HONORABLE ROBIN RENEE SANDERS, CHIEF EXECUTIVE 
              OFFICER, FEEEDS ADVOCACY INITIATIVE

    Ambassador Sanders. Thank you, Mr. Chairman and Ranking 
Member, and members of the subcommittee. I want to thank you 
for including me in this panel to talk about this very 
difficult situation.
    What my group does is work with diaspora groups around the 
country, particularly on strategic recommendations, on conflict 
issues and economic development. I have lived in and worked on 
Central African regional issues, both when I was Director for 
Africa at the National Security Council and also when I was 
U.S. Ambassador to the Republic of the Congo.
    The latter time was when former CAR President Bozize first 
came to power. This was also a time of great conflict and human 
suffering in CAR. The question the subcommittee is seeking 
views on today, however, is whether or not the Central African 
Republic is already in the throes of a pre-genocide atmosphere 
or already embroiled in genocide. So my remarks will address 
this and other elements that might be important to consider as 
we work toward helping CAR as the international community and 
try to stem the tide of violence that we see today.
    I first want to say something that is very similar to what 
my colleagues on the panel have said about the sheer 
devastation of the humanitarian crisis. I have been up on the 
border area many times between Central African Republic and 
Republic of Congo in my years in the past, and, in fact, there 
remains refugees there from earlier CAR conflicts.
    For more than a decade, military instability and an 
insecure environment have really been the focus of the CAR 
environment. It has caused internal issues which have never 
really been fully resolved. Social issues, political issues, 
and ethnic issues keep the country environment unstable and the 
people of the CAR at the mercy of the next wave of violence.
    And this has allowed for the rise of what we see today. 
Because of the continued instability and not being on the radar 
screen of the international community for more than a decade 
until the rise of the Seleka in December 2012, the events since 
then have set in motion two things--revenge killing by the 
anti-balaka Christian groups, which has now spawned into 
sectarian violence.
    In addition, over the last several days, we are hearing 
unconfirmed reports of what I would call reverse revenge 
killing, reportedly from armed Muslim militia of former Seleka 
running raids from Muslim enclaves in the north into nearby 
towns, such as attacking 2 days ago a hospital and killing 
Christians as well as workers with Medecins Sans Frontieres 
near the border with Chad.
    These enclaves only exist because Muslims have been forced 
to run from sectarian violence directed at them by the anti-
balaka groups as well as anti-balaka groups are also preventing 
those Christians who want to live in peace with their Muslim 
neighbors from doing so. Therefore, we have, as you know, the 
following--revenge killing, which has now turned into sectarian 
violence; a segregated country along Christian-Muslim lines; 
large numbers of displaced persons afraid and hungry; attacks 
on convoys evacuating people of either religious group; looming 
potential for famine and further spread of disease as neither 
planting or harvesting season has or will take place in the 
violent environment; and, most importantly, impunity.
    You have impunity from the former Seleka and others, 
including Djotodia and also former President Bozize. These are 
the elements that could possibly lead down the road to 
something we have not seen before--a two-way genocide as each 
group, Muslims and Christians, impose horrendous revenge and 
reverse revenge killings upon each other.
    If we allow this to happen, this would be a new challenge 
for the country and the international community on top of the 
already critical humanitarian crisis and thousands of 
internally displaced persons already on the umbrella of the 
airport as it is the only place that they feel remotely 
comfortable.
    Thus, what can be suggested as the way forward? I recognize 
that the administration is working full-time on the 
humanitarian crisis with internally displaced persons. And as 
you already are aware, there are many donors that have not 
stepped up to the plate to provide assistance, both 
humanitarian-wise as well as with peacekeepers.
    The 2,000 French troops and the 5,000 African Union troops 
of MISCA, as well as the 150 EU troops who have just arrived, 
should all be commended. But we also need to double down on 
ensuring that their troops are not seen to support one 
religious group over another.
    Having served in the U.S. Government for many years, I also 
recognize the timeline needed to get the full complement of the 
12,000-person U.N. peacekeeping mission in by September 2014, 
and that every effort is being made to advance this. But, Mr. 
Chairman, Ranking Member Bass, the reality may get ahead of 
their arrival, and we can see that now, particularly if what we 
are hearing about reverse revenge killing is really taking 
place with Muslim militia now coming back in and attacking 
other villages.
    Thus, as we balance this triplex of sectarian violence and 
revenge killings, IDP humanitarian crisis, and looming famine, 
we may need to jump now to concurrently working with the 
transitional government and others to set up what we are 
calling peace groups or peace commissions in rural areas, but 
particularly in the enclaves and in Bangui, because without a 
release valve for people to vent and articulate both their fear 
and hatred, their steep desire to have revenge killings for 
atrocities done to them or their families, and to address the 
overall environment of crimes against humanity, the impunity 
issue, we are likely at the beginning of seeing the current de 
facto segregation of CAR moving into something worse, such as a 
two-way genocide, the likes of what we have not seen before.
    The potential is there, Mr. Chairman. We can't move to 
helping people rebuild their lives, restart economic activity, 
without addressing these issues. In general, peace or 
reconciliation commissions, such as we have seen in Sierra 
Leone, South Africa, and even the communal ones that we have 
seen in Rwanda, generally have begun after peace or at least 
fragile stability has been restored.
    But what we are suggesting here is that these things happen 
concurrently now, because you have to have a way for a release 
valve to happen concurrently else you are not going to be able 
to get to the level of stability that they are trying to seek.
    I am not sure we can wait for that phase. As I said, the 
triplex of issues we see today may prohibit reaching an end to 
violence and atrocities unless some release valve is actually 
established. Looking at traditional methods like in Rwanda, 
what are the traditional methods in CAR to address conflict? I 
think we need to bring those to the fore, and a lot of the 
diaspora groups that are here today really have that 
information for you and have those good ideas.
    And I wanted to add something else, and I know this is not 
directly related to the question of the subcommittee, but I 
think it is very much an attendant issue. And I would be remiss 
if I didn't mention this issue after having served as the U.S. 
Ambassador also in Nigeria, with the resurgence of Boko Haram 
that has happened there.
    Events like we see in CAR, although we might not think that 
it could get worse, it can. They can spiral even more out of 
control so quickly and so fast. I think we need to be mindful 
that there is the potential for untoward groups to come into 
CAR and take advantage of the unstable environment, and the 
segregated environment in particular of both Muslims and 
Christians, not only fueling more hatred and violence but also 
bringing with them more violent methods, such as terrorist 
tactics that we haven't yet seen there that could potentially 
come in.
    I am specifically thinking about fundamentalist groups who 
could come in to provide al-Qaeda-inspired tactics, training in 
these enclaves because you have segregated societies there.
    I think it is important that we pay attention to this, and 
I want to ensure that my advocacy group, working with other 
diaspora groups, are really worried about this issue and wanted 
to bring it to your attention today.
    I want to thank the subcommittee again for allowing me to 
share these views, and I am happy to address your questions. I 
would also like to submit my revised remarks, with your 
permission, to the committee.
    [The prepared statement of Ambassador Sanders follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                              ----------                              

    Mr. Smith. Without objection, Ambassador Sanders, yours and 
all of the other full statements will be made a part of the 
record. Thank you for your testimony.
    Ms. Bass has another appointment pressing, so I yield to 
Ms. Bass.
    Ms. Bass. Thank you, Mr. Chair. I appreciate your 
flexibility. And I want to thank all of the panelists, and I 
appreciate your contributions.
    I did want to ask before I have to leave, Ambassador 
Sanders, if you could just expand a little more. For example, 
you were talking about the reconciliation process beginning 
now. And you mentioned, you know, several different countries. 
You also mentioned looking at the traditional processes that 
happen.
    So are you suggesting now that reach-out begin to the 
various countries--South Africa, Rwanda, Sierra Leone--and that 
teams are put together to come into the country now? And do you 
know if the AU or anybody else is attempting to do that?
    Ambassador Sanders. As far as I know right now, 
Congresswoman Bass, no one is attempting to do that. I know 
these are ideas that have germinated within the diaspora 
community. I did hear our colleague from CRS mention the 
workshops. But what we are talking about is something a little 
bit different than that because really going into the enclaves 
and having discussions now in these segregated communities.
    And I think it is important that we look at traditional 
ways of arbitration similar to what Rwanda did. So we need to 
find out what those traditional ways of arbitrations have been 
in the CAR context with their respective ethnic groups, because 
sometimes those ways of arbitration are quite different from 
ethnic group to ethnic group.
    And we need to start working with those groups in-country 
as well as look at outside examples and bring those in. I heard 
Rwanda mentioned earlier, but there are other examples out 
there too. And I think Sierra Leone I think is a really good 
example that is even similar to the situation in CAR, given the 
extent of the atrocities both in Rwanda and in Sierra Leone. I 
think those are two good examples.
    Ms. Bass. Well, I know that you are going to be leaving 
soon. But when you come back, I would like to continue 
conversations about this and maybe look as to how we make that 
concrete. So thank everyone very much for your testimony.
    Ambassador Sanders. Thank you, Congresswoman Bass.
    Mr. Smith. Thank you, Ms. Bass.
    Just a few questions. And, again, I thank you for your 
patience with all of the interruptions with voting.
    You know, I am concerned that there seems to be--maybe we 
have it now, but there has been a lack of urgency. I mean, last 
July many of us were raising these issues in earnest. I know 
that Bishop Nongo, when he came and testified, he was fresh 
from coming from the United Nations at which he tried, in 
talking to permanent representatives there, especially Security 
Council members, he had a sense of urgency that not only were 
the killing fields horrific then, that they could quickly 
become, you know, another Rwanda. And he made that point very 
clear, as he testified here.
    And yet the U.N. punted for weeks, now months, and now they 
seem to be standing up a force. I did ask Ambassador Jackson 
earlier about, you know, when the deployment actually occurs 
and we are still months away from that even though there is 
some augmentation going on of certain troops.
    And then we are still not sure, because I did ask him and I 
would appreciate any thoughts you have on this, about the 
configuration of the force, especially if it is right-sized and 
not being driven by how much money potentially will be in the 
kitty to fund it, but what is necessary to do the job and to do 
it as effectively as possible.
    I mean, were the Pentagon and others involved in this? 
Because it would seem to me that, you know, we do have planners 
who know what it takes. And very often--and we have seen this 
over and over again all over the world, despite the--you know, 
the goodwill of the blue helmets, but if they don't have the 
right mandate, and if they don't have enough people, it doesn't 
happen.
    And I mentioned earlier about Srebrenica, you know, the 
safe haven cities and a force that had horrible, and I mean 
horrible, rules of engagement. Just parenthetically, I had the 
translator who met with the Dutch peacekeepers in Mladic 
testify here soon after all of the Muslim men were slaughtered 
in Srebrenica, and he said he couldn't believe it. The 
peacekeepers were handing over the men to slaughter, and we 
have seen that replicated, in whole or in part, all over the 
world.
    So my point would be, are we moving with the urgency, with 
sufficient resources? You, Ms. Rose, point out in your 
testimony, your first two points--and all of you have said 
this--the importance of a robust force security and all the 
rest, but then you even talk about the humanitarian part. The 
2014 global humanitarian appeal is only 28 percent funded, 
three-quarters not funded.
    You point out that the first priority for Congress, and I 
thank you for underscoring that to Members of Congress, to be 
protecting appropriations funding for the international 
disaster assistance and migration and refugee assistance 
accounts to ensure humanitarian needs can be met throughout 
2014 and into 2015.
    Then, you point out ominously and disappointingly that the 
administration's 2015 budget request to Congress cuts the 
international disaster assistance funds for displaced persons 
by 28 percent from 2014 levels, and the MRA account by 33 
percent. You also, as has been said throughout this hearing, 
other donors, other countries, need to be stepping up to the 
plate as well and meeting their obligations.
    And, Madam Ambassador, you might want to speak to this, 
too, because you were on the inside for so long. How do we get 
the administration itself, and then, by extension, Congress, to 
realize that this crisis is being underfunded? And we do take 
our cues from the administration. I have been in Congress 34 
years. When an administration lays out a number that they think 
is the requisite amount for disaster assistance, for example, 
it does become a very important number that is taken seriously. 
It is not something we just throw over the side, and to up it 
takes a lot of data and information that you in the NGO 
community especially, and as experts, can help us.
    So I think your admonishment to us to meet this unmet need, 
particularly in the budget that has been proffered by the 
administration, is a very serious shortfall on the part of the 
administration. So you might want to speak to that as well.
    And, finally, I just want to ask--I do have a lot of 
questions, but if you would touch on those. The work of 
Catherine Samba-Panza, you know, the sense from the testimony 
is that there was a heightened sense of expectation and 
hopefulness that may have been diminished over the last several 
weeks. Is that true? Does she have the kind of backstopping 
that she needs by the international community as head of state?
    And, finally, when it comes to children's issues, what are 
the kids doing? I mean, I appreciate, Mr. Campbell, you talked 
about that one individual who decided not to go the route of 
the gun simply because you in your workshops had inspired him 
to see another route to take. But, you know, there are a lot of 
young youth, young people I should say, and especially the most 
vulnerable, the under-five part of the population and 
vulnerable women who are not getting the kind of help that they 
need, particularly in this crisis situation, maternal 
mortality, child mortality--you mentioned, Ambassador, about, 
you know, famine and further spread of disease--you know, the 
stalking of a whole slew of diseases that could break out, if 
they haven't already, if you could speak to that as well 
because these are all issues that it helps us to know with as 
many specifics as possible, so that we can respond accordingly, 
particularly with the resources.
    Madam Ambassador, I understand you will have to leave 
shortly, so if you wouldn't mind going first.
    And I would ask my friend and colleague, Mr. Meadows, if he 
might have a question for the Ambassador as well, so that he 
can get his question in to you before you have to make your 
departure.
    Ambassador Sanders. Okay. Let me take the right-sizing 
issue first, because I think that's a really extremely 
important one. And we should have learned lessons I think from 
Rwanda, which should be applied here. I think that you are 
absolutely right that U.S. planners should be involved in this, 
and they can be working with the U.N. Department of 
Peacekeeping Operations to really make sure we have got it 
right this time in terms of the--not only the force size but 
the elements of the force, so that you are really not only 
addressing the peacekeeping mechanism but maybe in addition to 
the policing mechanism as well, because you have got to have 
the space for security, but you also have to have the policing, 
so that you can maintain or keep the security that you have 
gained, because every time the peacekeepers move to a different 
location, then you have a fallback of that previously protected 
area that is no longer protected.
    So I think we should have learned lessons from Rwanda in 
terms of better managing the numbers and making sure we have 
the right-sizing done. And I think more dialogue with our 
planners and the Department of Peacekeeping Operations at the 
U.N., I think really needs to be done, so we can get those 
numbers right this time, and get the mix right, because we may 
need more police than we need peacekeepers or the various 
combinations. But definitely you need both types of forces on 
the ground.
    In terms of the interim President, first of all, let me 
take my hat off to her because she is definitely trying to 
manage a very, very difficult situation, and I think she needs 
all of the support the international community can provide to 
her. But I would add that some of the examples that have been 
provided by my colleagues here, including the idea of possibly 
having these peace groups or peace commissions begin, I think 
we really need to start working with her and the transitional 
government in order to make that happen, because they have to 
have buy-in, too.
    We can't--we are not able to do these things without the 
buy-in of the transitional government as well. So we have to 
get her buy-in on some of these ideas that have been presented 
to the subcommittee, so that we are working in lockstep and not 
in counter-step with each other.
    In terms of the famine and disease, you heard earlier about 
World Food Programme's stats on what they have in terms of what 
they are able to provide to the IDPs. But you are also missing 
the other point in terms of normally you have a planting and a 
harvest season. That hasn't taken place because of the 
violence. So the normal foodstocks that are there are also 
diminished. So in addition to having a reduced amount of relief 
food, you also have a reduced amount of the normal stocks that 
are in CAR.
    So I am worried about the potential for famine for both 
reasons, and I think that this is something that our 
administration needs to look at down the line maybe 3 or 4 
months, because we could be having this same conversation in 
August and September, quite differently as we are facing famine 
on top of an already bad situation.
    Mr. Smith. The cut that has been proposed, would that be 
devastating, that Ms. Rose mentioned in her testimony, the cut 
to the international disaster relief account? It is a huge cut.
    Ambassador Sanders. She is absolutely right. That is going 
to impact everybody's ability to do their job, particularly on 
the humanitarian side. So we can't diminish any of these 
things. I mentioned earlier that we had a triplex of issues 
that we haven't had before, and all of these are converging and 
that is a big one. And it would also help address the famine--
the potential famine issue down the line as well.
    Ms. Rose. Thank you, Chairman. I will just go down the 
line, if that's okay, with some of the questions.
    Mr. Smith. Please.
    Ms. Rose. So in the MINUSCA mandate, I think from Mercy 
Corps' perspective we don't have a position on the numbers, but 
we are happy with the mandate. We think it has a very strong, 
well thought out mandate that is intentionally chronologically 
strategic about what it is supposed to achieve. So it starts 
with a clear intent to protect civilians and then transitions 
into the state-building and institution-building down the line, 
which we think is smart and isn't always laid out.
    We are also really happy with language that requires 
MINUSCA to work with humanitarian and human rights partners in 
devising a comprehensive protection strategy from the get-go as 
it scales up, which is kind of new and innovative language, and 
we think really critical about--that means the U.N. is going to 
have to allocate resources to do an entire risk assessment of 
protection concerns throughout the country, and then plan a 
strategic response, which is really good.
    I think what is kind of below that, which is more 
important, is that, you know, we have to support MISCA, which 
we have all stated and you well know. But it kind of answers 
the first question about MINUSCA, because the fluidity of the 
crisis in CAR is so constant. It changes every day. There are 
new threats emerging in different parts of the country, and so 
the focus should really be on reinforcing MISCA, which we have 
some recommendations for that I think I said in my testimony. 
But I think that's the priority.
    Third, on the funding question and how disastrous it would 
be, I think it would be really great for, you know, the 
administration to feel some pressure from Congress and for 
Congress to request a conversation or a briefing from the 
administration their rationale behind those cuts and how they 
think we are going to respond not just in CAR but in South 
Sudan and Syria where these displacement and protracted 
situations are not getting better. I think that would be a good 
initiative.
    But I also want to underscore that the fact that we have to 
keep fighting for crisis response underscores the fact that we 
aren't investing enough in prevention. These crises are 
expensive. They get more and more expensive the longer that 
they unravel, yet in our foreign assistance budget we have very 
few mechanisms available for proactive prevention.
    The Complex Crisis Fund is one--the USAID Complex Crisis 
Fund is one of the newest tools that was developed in 2010. It 
is funding Catholic Relief Services, Search for Common Ground, 
and Mercy Corps--they were able to respond very quickly. They 
turned around a proposal in, you know, a matter of weeks. That 
is a great tool that we really think should be scaled up to at 
least $100 million, and beyond just the CCF and rapid response 
structures, but really finding--looking at our foreign 
assistance priorities and platforms and how we can carve out 
more proactive prevention.
    On your question of Samba-Panza and the transitional 
government, from my perceptions on the ground and from our 
staff's perceptions, there still is faith and optimism in the 
transitional government, but it is waning as we mentioned. And 
what we really prioritize is that the transitional government 
has a support package to pay civil salaries and to restore 
basic state functions, so that they can begin to provide 
services.
    We are happy with The World Bank's announcement earlier 
this week, which will be an initial salary payment, but it is 
very small. We also think the IMF really needs to get involved, 
and we recently heard that they plan to send their assessment 
team in July, which we think is not fast enough. And if 
Congress could help accelerate that process for their scale-up 
grant, it would be really great.
    Fifth, on the question of vulnerable populations and the 
displacement crisis, there have been a lot of comparisons of 
CAR to Rwanda. But what I was trying to sort of portray in my 
testimony, and what we are really seeing is that it is actually 
we think unfolding into something more like a DRC, where there 
is a massive protracted displacement crisis. And if the 
international community is distracted and only responds to the 
immediate needs without thinking of the underlying root causes 
that caused the conflict in the first place, that we are going 
to end up having to spend billions of dollars for 20 years and 
still have a crisis.
    And that is why we are encouraging long-term investments in 
state-building and institution-building and political 
reconciliation, so that we don't see CAR fall into a similar 
crisis down the line.
    And just quickly on reconciliation, which Ms. Bass asked 
about, there are some local initiatives going on already on 
reconciliation. But a lot of the local structures have been 
completely destroyed, so there is really a need to invest and 
scale those up, but there are local capacities that can begin.
    There is also high-level engagement on political 
reconciliation, so the U.N. Mediation Support Unit has been 
working on a reconciliation plan. MINUSCA Political Affairs, 
their primary task over the next 3 months is to find all the 
different influencers and the power players and to start to 
rebuild that strategy and so I think the big key for Congress 
is to stay engaged with that process and see where there are 
gaps and where there is need for support, and to ensure that 
that reconciliation process is coordinated, so that the local 
efforts and the high-level efforts are coordinated and go in 
parallel to make sure that you don't loose the connection 
between the grassroots and the elites in society, which for so 
long hasn't been there and that is a big undercurrent of the 
crisis.
    Mr. Agger. Yes. Thank you so much once again. I would say 
that the important point I think here, it is not just a matter 
of how many troops we get. And for me personally, I am not a 
military planner, so I can't talk much about that. But I think 
what all of us have said here on the panel is that the 
political process has stalled, and the transitional government, 
there is still hope, yes, but her ability to deliver is very 
limited, because she has no army, she has no police. There are 
no judges. She does not have a state budget at the moment.
    So her ability to respond to international and to local 
expectations is extremely limited. So I think that is where the 
international community needs to come in and provide her some 
tools to help her. You can provide her with finance. You can 
provide her with advisors and support to bring out the 
political mandate.
    And then I think, secondly, the reconciliation process, as 
everybody has talked about, needs to start now from the bottom 
up at the grassroots level, because you have all of these 
different armed groups that are operating without any central 
command in different parts of the country. So you can't just 
call the usual suspects of the key leaders of Seleka and anti-
balaka who sit in the capital, Bangui, and try to have a 
roundtable and solve it that way.
    You need to create a team of negotiators or advisors that 
can actually travel around the country and start to distill 
what the local issues are and start to broker some local 
understandings, because I agree very much with my colleague 
here that once the dialogue starts--and I think that is what 
you also heard from the representatives who were here from the 
religious community last year--that it is possible to reconcile 
people, but it is not happening at the moment.
    Thank you.
    Mr. Campbell. I would agree that the new interim President 
and the government is not given the support it needs to really 
make an impact. They are losing credibility every minute of the 
day. In fact, Bishop Nestor, when he was in Bangui, I went to 
the mass where the President had attended as well, and he was 
very clear.
    The police and the army of the country itself has no arms. 
They are not part of this process, and he had made the point 
that that had been the case in Sierra Leone, Ivory Coast, and 
other places as well. So the population that is supposed to be 
part of rebuilding the government and the society are not even 
involved in the process.
    With regard to support, I think I see it in three different 
ways, and it is support, which has been slow to the 
humanitarian situation, the security, and, again, as I said, 
the interim government. They cannot move forward, and they lose 
that credibility with the population and undermine the very 
governance that got us into this problem over the past several 
decades.
    Regarding the workshops and reconciliation, in fact, we do 
work in those enclaves, and that needs to be expanded and, I 
agree with my colleagues, coordinated. But it has to involve 
the people of the country itself and cascade down throughout 
the communities. It is not something that can be helicoptered 
in, but our work is very much with those faith leaders, but 
also community leaders, parliamentarians, they have to take 
hold of the process of reconciliation and the social fabric.
    Thank you.
    Mr. Smith. Thank you.
    Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman, and for continuing to 
bring this issue to the center and forefront of not only our 
minds but to many of our colleagues. Sadly, for many of the 
people we represent, if you were to ask them to find the CAR on 
a map, they could not do it. And yet the atrocities that are 
happening daily are things that they would find appalling.
    And so your testimony here today is critical because it 
sheds some light on it. My concern is is at times we take 
this--and many of you live and breathe this every single day, 
so you know the subtleties of it, you know what works, what 
doesn't work. And yet when you come to testify, you paint a 
very broad-brush picture of what you would like to see the CAR 
look like maybe 10, 20 years from now, knowing full well that 
it only will happen in very small incremental stages. But we 
have, from what I am hearing, we have a critical timeline that 
must be addressed both financially and with other resources 
immediately. Is that correct? So all of you are nodding yes.
    So your testimony--so let me go further. I assumed that 
that would be a yes from all four of you. So let me go further, 
because I am putting this in several different buckets. One is 
humanitarian. One is peacekeeping. But the other is something 
that the Ambassador alluded to, and I guess, Mr. Campbell, you 
alluded to as well, is the policing side of that to even 
provide for a peaceful situation so that reconciliation, so 
that economic growth, a number of those things can take place.
    How do we best assist, recognizing the sovereign nation, 
you know, and the sovereignty of a foreign government, to come 
in where it is not the United States trying to put their 
particular stamp on a country and a culture that we really 
don't want to Americanize. How do we get, one, that message 
across? And, two, how do we very quickly on the policing side 
of it assist? Because if you look to train police and military, 
that is a very long process. It does not happen in a month or 
two.
    So it almost requires intervention. What is the best 
solution to that? So that the peacekeeping can indeed do the 
peacekeeping, Madam Ambassador, as you mentioned, recognizing 
we have limited resources. But how do we best set the priority 
for what we do first to start this process? And, Madam 
Ambassador, I know you need to leave, so I will start with you.
    Ambassador Sanders. Thank you so much. I think your points 
are extremely important. One of the things that I think that 
can be done on the U.N. side, because policing can be done with 
a U.N. mandate as well, if they include it in the mandate, and 
so your timeline about training, yes, that is down the line for 
people of CAR, but to bring in police as part of the U.N. 
mandate would not be unheard of. And you can do that to 
solidify whatever gains you do make in terms of security. So 
that is one way to at least start, by including bringing in 
police units as part of the U.N. peacekeeping effort.
    So you can build on the police that are there to at least 
establish or begin to establish security units that can go and 
travel and try to maintain the areas that have already been 
secured, or that need to be resecured and maintain those, and 
look at training the CAR police way down the line.
    Mr. Meadows. So is that something that the current 
government would welcome, or, I mean, what--politically, what 
would we have there?
    Ambassador Sanders. I think that it is something that, 
given the fact that the transitional government needs a lot of 
support, I think it is something that they would welcome, 
because they understand the fact that without that kind of 
constant security that they are never going to be able to reach 
their goal or the goal of the international community to 
provide stability for CAR.
    So I do think it is something that they would consider 
positively, and I think it is something that we need to think 
about and actually encourage the U.N. to take a look at, 
including inviting police units as part of the U.N. force to be 
in CAR.
    One of the areas that you didn't mention that I really 
think we haven't spent enough time on is the impunity issue. 
And I say that because part of that reconciliation is for 
people to be able to see that the international community has 
taken the question of impunity very, very seriously, and that 
is with former Seleka leaders, that is with former President 
Bozize and others. And we haven't really addressed that as the 
international community as of yet, and I----
    Mr. Meadows. So with a marginal judicial system within the 
CAR, I mean, so how do you do that? I mean, how functionally do 
you have that impunity where it gets dealt with?
    Ambassador Sanders. Well, we do have the International 
Criminal Court. That is one of the reasons that the 
International Criminal Court is there when an internal system 
cannot deal with crimes against humanity itself. And so that is 
a mechanism, that is an area where we can at least begin that 
dialogue and have the ICC look at this question of impunity of 
some of the leaders that are out there, some of those that have 
caused the current violence, and some of them that are 
responsible for the underlying causes that are in CAR today.
    So I think it is something we can do. The International 
Criminal Court is there, and that is part of one of its 
mandates is to look at issues where the country itself cannot 
manage its own judicial system in a way that you can address 
the question of impunity.
    Mr. Meadows. So can you comment, if you would for me, on 
the Atrocities Prevention Board, how that has either played in, 
or doesn't play in, or what role does it play in the CAR at 
this point. Can anybody comment on that?
    Ambassador Sanders. There may be others that are best 
placed, but we heard earlier today that as far as the 
administration understood maybe there was one meeting, but 
there may be others on the panel that might be better placed to 
answer that than I am.
    Mr. Meadows. Ms. Rose, I see they are all looking at you. 
[Laughter.]
    Ms. Rose. I am excited for this question. So from our 
perspective, so as an NGO community that has collectively 
worked on mass atrocities prevention advocacy, in our opinion, 
we do think that the Atrocities Prevention Board played a very 
important role.
    For the comments that the State Department didn't know 
about the CAR crisis until November and December, I thought 
that was a problematic response and that there is some 
potential opportunity for Congress to push back and ask how 
that is possibly the case, given that the----
    Mr. Meadows. Potential opportunity, right?
    Ms. Rose [continuing]. That I would love for you to use.
    Mr. Meadows. I did of did ask, but I will ask----
    Ms. Rose. Right. But follow up and say, you know, if the 
coup happened in March, and we now have interagency structures 
to raise red flags up the ladder to the highest level, how is 
it possible that the State Department wasn't looking at this 
intentionally in November and December? So I think that is a 
follow-up opportunity.
    But the Atrocities Prevention Board, from our perspective, 
did play an important role. They were convening behind-the-
scenes meetings. The Conflict Stabilization Office, out of the 
State Department, was the key locus of sharing information 
across the interagency. In August, September, October, and 
November, they did convene meetings. They had open sessions 
with the NGO partners, so we could express what we were seeing. 
So that would not have happened with out the Atrocities 
Prevention Board and Presidential Study Directive 10.
    That said, clearly, we were too late. So our question that, 
again, we would love for Congress to ask is, what happened in 
March? And where does atrocities prevention sit on parallel 
with other national intelligence priorities?
    Mr. Meadows. Right.
    Ms. Rose. If CAR was, you know, geopolitically 
strategically irrelevant until mass atrocities were occurring, 
how are we better elevating that prioritization framework? And 
how can we get ahead of--how can we pay better attention to----
    Mr. Meadows. So how do we put a better emphasis ahead of 
the curve instead of after the curve, is that correct?
    Ms. Rose. Yes.
    Mr. Meadows. Okay.
    Ms. Rose. In 2013, out of Presidential Study Directive 10, 
they were required to create a National Intelligence Estimate 
on mass atrocity threats everywhere in the world. It is not 
public obviously, but that, we understand, has been created. 
And so, you know, figuring out where CAR was on that list, how 
it moved, I think CAR would be a really great case study for 
Congress and the interagency to explore where the breakdowns 
are in that system.
    But we do think that there has been progress, and that 
because of the APB's existence, because of Presidential Study 
Directive 10, because of the core U.S. commitment to preventing 
mass atrocities, the response was faster than it ever would 
have been.
    And quickly I would just add where we think there needs to 
be more progress moving forward, one would be unlocking the 
information-sharing problem and these blockages to investing 
and more flexible and long-term funding across the board, 
recognizing that you can't solve CAR's crises and challenges in 
12 months. We need multi-year assistance programs that let 
practitioners and implementers really deal with the 
complexities of these problems. And then, third would be to 
codify our commitments in law to mass atrocities prevention.
    So under PSD-10, you know, that might not live beyond the 
Obama administration unless Congress codifies it into law, and 
that would be great.
    Mr. Meadows. All right. So let me kind of bring it down. If 
we were to only do two things in the next 90 days, what would 
it be? Two things. Now, I know that, you know, we need 
humanitarian and we need policing and all of that. But if we 
could only do two things and say that this is the most critical 
time because we are underfunded, we are understaffed, we are, 
you know, what would it be--I was at a dinner, and I can tell 
you that whether it is NGOs, the State Department, the U.N., a 
number of them, the focus for them was two places, South Sudan 
and the CAR.
    And that was the focus, and they were saying we have got to 
act, and we have got to act immediately. But for every day that 
we don't act, there are lives that are being lost. And so how 
do we do this--if we were to say the next 90 days you could do 
anything that you wanted to do, what would it do in terms of, 
how would you prioritize our involvement there? Mr. Campbell, 
we will start with you.
    Mr. Campbell. Security would be first, because we need that 
operating environment.
    Mr. Meadows. And by ``security,'' do you mean policing or 
peacekeeping or----
    Mr. Campbell. If I can get away with it, I will take both.
    Mr. Meadows. But if you had just one, what would it be?
    Mr. Campbell. The security, meaning not the police but--
because the situation is so volatile that until that is 
stabilized, nothing else can move.
    Mr. Meadows. Okay.
    Mr. Campbell. And then, secondly, the humanitarian 
response, because people are in such need, particularly food 
security over and above the--before you get to the immediate 
response. That has to come, but this is--because of how this 
has evolved, this is a long-term disaster, particularly with 
food security. As I said earlier, this is 2 years of 
consecutive problems with planting, and so forth. Even in the 
lean periods before the crisis, it was very difficult.
    Mr. Meadows. Sure. Okay.
    Ms. Rose?
    Ms. Rose. I would concur that the first initiative would be 
to reinforce MISCA. They are specifically trying to find 
replacement 850 peacekeepers for the Chadian force that left, 
but also just explore across the interagency if there are ways 
for the United States to increase assistance to MISCA in the 
immediate term.
    And then, number two would be to pass a bill authorizing 
multi-year assistance funding to CAR that transcends the 
regular appropriations calendar, so that not just financial 
assistance but it would be a 4- or 5-year strategic response 
bill that includes humanitarian development, diplomatic and 
political commitments to seeing CAR through its transition.
    Mr. Meadows. All right. What I would like is, if you 
would--and not for open testimony, but if you would submit what 
that budget would look like, what the parameters. I don't need 
a Cadillac or a Rolls Royce version. I won't mention another 
vehicle, but I need something less than that. [Laughter.]
    How about that? Okay?
    Ms. Rose. Yes, sir.
    Mr. Meadows. Mr. Agger?
    Mr. Agger. Yes. Thank you. I would agree that those are 
critical issues, but I would like to propose that we look--
think a little bit outside the box and not just think about 
more troops and more police. I firmly believe that with local 
dialogues, a reconciliation approach, we will be able to 
contain the violence. It is another method to stop the violence 
that has not been tried in the country. And I firmly believe 
that it will make a huge difference on the ground once people 
start to talk together.
    Mr. Meadows. Okay. What would be their motivation to talk?
    Mr. Agger. Their motivation is that nobody really has a 
good situation. People are displaced. People are being attacked 
daily. So my experience from talking to local people, people 
are seeking leadership and seeking guidance. They are seeking 
someone who will try to put order in place. And I believe that 
it is much more cost effective to start local dialogues than to 
keep pushing for additional peacekeeping forces. And, 
realistically speaking, I just don't see where the finances and 
the troops going are to come from at this moment.
    Mr. Meadows. All right. Let me follow up, and then we will 
let you finish, because I know we are pressing on time limits 
for everybody. You mentioned diamonds and a few of the other 
things and outside influences. What component or what 
percentage of this is a terrorist, organized crime intervention 
within that in terms of diamonds and other natural resources? 
Whether it be Hezbollah or any of the others, what kind of 
presence would you see them having in the CAR?
    Mr. Agger. It is not something we have seen to date. What 
we have seen is that particularly the Seleka alliance and key 
members used ivory poaching and control of diamond areas to 
finance the rebel group. And most of those commodities went 
through Sudan, because of the strong relations with the 
Sudanese Government and members of the Janjaweed militia.
    So I think that is where we would have to look, but I 
recognize these are more long-term issues that will not have an 
immediate effect. That is why I do not raise it as the most 
crucial point.
    Mr. Meadows. Okay. Madam Ambassador?
    Ambassador Sanders. Thank you. I also have to echo police 
and peace and security as number one, and I think you can't 
split the two. You need both police and security. But I am 
going to go back to the impunity issue, because I think it is 
double-sided. One, because it shows if you bring leadership to 
the justice system, then you have a better chance of 
reconciliation happening on the ground.
    If people see that the leaders of Seleka or former 
President Bozize and others that have looted and put the 
country in the situation that it is now are being brought to 
justice, I think that it better helps the reconciliation 
process on the ground. Again, I go back----
    Mr. Meadows. So that becomes the motivation for them to 
talk, as Mr. Agger was talking about, if they can't operate 
without impunity.
    Ambassador Sanders. Right. Exactly. If you have the 
leadership that is operating with impunity, then, you know, 
what is the motivation, you are right, even if we have more 
peace groups. I think it encourages people when they see that 
the leadership is also brought to justice that they have a 
better chance of survival. And so I would encourage that we 
begin a dialogue with the ICC to look possibly at the CAR and 
bringing some of these leaders--leadership to justice.
    And, lastly, and it was touched on briefly, is the 
complicity issue by various elements throughout the region. I 
do think that that has historically been a problem with CAR. 
You do have, you know, various complicity support coming from 
different countries around CAR and what their role is, whether 
it is on the economic resource side or whether it is on the 
political influence side.
    Those two issues have existed for more than a decade in 
terms of outside complicity, helping to destabilize CAR, and 
that has not changed. So we need to bring our administration's 
voice and the voice of Congress to some of those leaders around 
the region, and address some of the complicity issues that we 
all know are there.
    Mr. Meadows. Mr. Chairman, I appreciate your patience. I 
yield back.
    Mr. Smith. Thank you very much.
    Just before we conclude, just a couple of final questions, 
especially as it relates to the ICC. Yesterday in this room the 
full Foreign Affairs Committee passed my resolution that I 
introduced way back in September and held a hearing on and did 
an op-ed for the Washington Post on the need for a Syrian war 
crimes tribunal that would be patterned after an ad hoc, 
similar to what we had in Sierra Leone, Rwanda, and the former 
Yugoslavia.
    The ICC, as we all know, has had one conviction in over a 
decade. It has 18 investigations, all Africans, nobody else for 
some odd reason. And it seems to have all kinds of internal 
constraints. A lot of it has to do with the way it was 
configured, that makes it less flexible, doesn't go after as 
many people, does not have a chilling effect.
    And one of the things that David Crane said when he 
testified, the chief prosecutor for Sierra Leone who sat right 
where you all sit just a few months ago, was that--you know, 
and he gave a number of scenarios of what that ad hoc tribunal 
would look like, but you have got to have the ability to go 
after both sides. You have to have the ability to go after more 
than one actor or, you know, one or two, which is what the ICC 
often does. And, again, only 18 indictments in over a dozen 
years is not a record that gives a lot of hope that they will 
have any consequence here.
    So my question would be, should we be looking at an ad hoc 
tribunal as it relates to the CAR? Similar to what we are 
trying to get off the ground for Syria.
    And, secondly, Ms. Rose, you mentioned and talked about 
targeted interventions toward protecting women. Several years 
ago, I don't know if you know this, but I actually am the 
author of the Trafficking Victims Protection Act, our landmark 
law in combatting sex and labor trafficking.
    Well, Greg Simpkins, our staff director on the 
subcommittee, and I learned quite horrifyingly that 
peacekeepers in DR Congo were raping little girls. Here are the 
peacekeepers, with a duty to protect, with a mandate to 
protect, had not been properly vetted, and were actually raping 
little girls.
    So we held three hearings on it. The U.N. did issue a zero 
tolerance policy to its credit and did some good work, at least 
on paper, and some tried to do it for real. But we went there 
and visited not only the peacekeepers but also a place called 
HEAL Africa, where so many women who had been gang raped by 
armed individuals, as you pointed out in your testimony, were 
getting a faith-based approach that were helping them get their 
lives back, to deal with a trauma that is unthinkable and yet 
they were getting some real help.
    Juxtapose that, and to you, Ambassador Sanders, is it a 
problem in Nigeria. Is it a problem of trafficking in CAR? We 
haven't heard much about that. Have peacekeepers been complicit 
in any way?
    Just the other day we heard of all of those young women, 
students, being trafficked by Boko Haram in Nigeria, and there 
have been marches in Abuja about it, because people are 
frustrated. And those young girls were sold into slavery, 
abducted and now sold into slavery by Boko Haram.
    And I am wondering if anything like that is happening in 
CAR. Have there been any reports of trafficking? And are we all 
making sure that those peacekeepers that are deployed and will 
be deployed are properly vetted so that they don't become part 
of the problem rather than part of the solution? My final 
question.
    Ambassador Sanders. Thank you, Mr. Chairman. On the 
question of whether it should be an ICC or an ad hoc tribunal, 
I think that the bigger, macro issue is the impunity. Whether 
it is a tribunal or whether we do a one-off at the ICC, I think 
it is the message that it sends and the vehicle that we choose 
I think--I think both vehicles will be useful because you do 
have the international aspect from the ICC.
    You are right on the number of convictions, but at least it 
brings an international zero-in on the impunity issue as well 
as you could probably do a war crimes tribunal as well. But I 
think it is the question of impunity. I haven't heard 
specifically on trafficking, but let me just say that I would 
not be surprised if that is also an underlying issue that is 
going on. And if it hasn't started, there is always the 
potential with instability like that for that to become another 
unfortunate weapon of war of trafficking young men and women in 
that circumstance.
    So I think that is another thing you are absolutely right 
to put on the table, and it is one thing that we have to watch.
    In fact, I am headed to Nigeria right now to go to Kano and 
Katsina, and so I don't know if I will be allowed to--my flight 
leaves at 2:30. So if that is okay, thank you so much.
    Mr. Agger. Yes. Thank you so much again. I will talk to the 
issue of the peacekeepers. There have been several incidents 
where Chadian peacekeepers have been involved in violent acts 
against civilians. The event we talked about earlier today 
where 30 civilians were killed, that was perpetrated by Chadian 
soldiers. Some of them were even special forces soldiers that 
were operating without any mandate inside the country, which is 
just horrible and needs much more international scrutiny to 
prevent these events in the future.
    And I would also just take this opportunity to say that I 
am publishing a report today about the drivers of the violence 
in the country where you can learn a lot more about our ideas.
    So thank you so much for this opportunity.
    Mr. Smith. You know, I should note that we are deeply 
appreciative on the subcommittee that C-SPAN has given the 
American people the opportunity to hear about this tragedy from 
experts who are living it. If you could just say how one might 
get that report?
    Mr. Agger. You will find it at theenoughproject.org.
    Mr. Smith. Thank you.
    Ms. Rose.
    Ms. Rose. Thank you. On the question of justice, I would 
have three points. So Mercy Corps, as an agency, I don't have 
an opinion on whether the ICC is relevant to CAR, but I will 
just go straight past that part of the question if that is 
okay.
    I think there is three points to think about. One would be 
that we really need to be talking to Central Africans and ask 
them what they see as justice. That was one of the questions I 
asked the most when I saw--when I was on the ground. Is it 
community-based? Is it transitional? Is it statutory? What will 
make you feel safe?
    And there are some funds to do those types of surveys but 
not enough. We certainly need more, and we need to elevate 
their voices in the debate. You know, Mercy Corps, Search for 
Common Ground, CRS, we do have some structures where we are 
engaging in those dialogues and putting together surveys, but 
it does take time.
    Secondly, just to highlight that I think in the immediate 
term and preventing violence, community-based conciliation is 
the best approach. So with our GBV centers, because the justice 
system has ground to a halt, we have adjusted our strategy to 
do community-based healing and reconciliation, and we found 
that to have productive results.
    And then just, third, I would say going back to the point 
about the need for state-building and support to the state, 
police are there, police are in Bouar, they are in Bossangoa, 
they are in Bambari, there are still, you know, civil servants 
that want to serve but they haven't been paid, so that is a 
peace of the justice puzzle.
    And then, on the issue of gender-based violence, I do not 
have information on trafficking or complicity of peacekeepers, 
but I am happy to ask my staff and get that to you. I think 
regardless of whether it has happened or not, a big priority 
for us is ensuring that the U.N. human rights due diligence 
policy, which vets peacekeepers, is put into place immediately, 
so that any new MISCA troops that come in and those that will 
be transitioned up from MISCA to MINUSCA are going through that 
vetting process now. So the sooner the better.
    And then, third, on the point of holistic services and 
whether we are adequately funding, Mercy Corps is funded from 
the Department of State, Women, Peace and Security Act/Africa 
Bureau for our GBV services, such as to highlight that 
something that started in Congress is now a funding structure 
and is working on the ground to really save lives.
    But we aren't seeing in the international response specific 
carved-out funding for GBV right now. I would like to highlight 
that Secretary of State Kerry launched this past year, the Safe 
from the Start initiative that is supposed to prioritize 
emergency GBV response and emergency responses, so that grants 
would be made available. But I think CAR would be a good 
example to say that it is not coming to real life. We haven't 
seen it yet.
    So thank you very much.
    Mr. Campbell. As far as the peacekeeping and the MISCA 
forces, I mean, the configuration and makeup of--from countries 
that border CAR is certainly a huge complication, in particular 
Chadian forces in there at the time.
    With regard to the ICC and the ad hoc tribunals, I have 
nothing to share in that regard.
    And then, finally, for the trafficking in CAR by the 
peacekeepers, I can't speculate. I have not heard of any 
reports myself. However, many of those countries that do border 
CAR have these kinds of problems, but I have to say that there 
have been no reports.
    Thank you.
    Mr. Smith. You have all been extraordinarily insightful. 
Thank you for your commentary, your recommendations, as well as 
your relaying the facts on the ground as best you see them.
    I would like to thank my colleagues for this.
    Again, I want to thank C-SPAN for giving America the 
opportunity to hear what is going on. As Mr. Meadows said, some 
Americans might have a little trouble finding where CAR is on 
the map, but, frankly, they are our friends, our neighbors, our 
fellow human beings, and we need to love them, embrace them, 
and help them in every way possible. And so your 
recommendations will be very helpful, and thank you to them and 
for getting this message out to the rest of America.
    The hearing is adjourned.
    [Whereupon, at 1:43 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]

</pre></body></html>
